<html>
<title> - TRIALS IN TRANSPARENCY: AN ANALYSIS OF VA COOPERATION WITH CONGRESS IN MEETING ITS OVERSIGHT RESPONSIBILITIES ON BEHALF OF VETERANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
TRIALS IN TRANSPARENCY: AN ANALYSIS OF VA COOPERATION WITH CONGRESS IN 
      MEETING ITS OVERSIGHT RESPONSIBILITIES ON BEHALF OF VETERANS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-37

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
82-897                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7215021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>  



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking
GUS M. BILIRAKIS, Florida            CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE MCLEOD, California
MARK E. AMODEI, Nevada               ANN M. KUSTER, New Hampshire
MIKE COFFMAN, Colorado               BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               TIMOTHY J. WALZ, Minnesota
PAUL COOK, California
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 19, 2013

                                                                   Page

Trials In Transparency: An Analysis Of VA Cooperation With 
  Congress In Meeting Its Oversight Responsibilities On Behalf Of 
  Veterans.......................................................     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman,......................................     1
    Prepared Statement of Chairman Miller........................    31
Hon. Michael H. Michaud, Ranking Minority Member.................     3
    Prepared Statement of Hon. Michaud...........................    32

                               WITNESSES

Hon. Joan Mooney, Assistant Secretary for Congressional and 
  Legislative Affairs, U.S. Department of Veterans Affairs.......     4
    Prepared Statement of Hon. Mooney............................    33

                        STATEMENT FOR THE RECORD

Letter Response From Hon. Joan Mooney, To: Hon. Bill Flores' 
  Hearing Question...............................................    35

                        QUESTIONS FOR THE RECORD

Questions and Responses From HVAC, To: Department of Veterans 
  Affairs........................................................    36


TRIALS IN TRANSPARENCY: AN ANALYSIS OF VA COOPERATION WITH CONGRESS IN 
      MEETING ITS OVERSIGHT RESPONSIBILITIES ON BEHALF OF VETERANS

                      Thursday, September 19, 2013

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Lamborn, Bilirakis, Roe, 
Flores, Denham, Runyan, Benishek, Huelskamp, Amodei, Coffman, 
Wenstrup, Cook, Walorski, Michaud, Brown, Takano, Brownley, 
Titus, Kirkpatrick, Ruiz, Negrete McLeod, Kuster, O'Rourke, 
Walz.

              OPENING STATEMENT OF CHAIRMAN MILLER

    The Chairman. This hearing will come to order as we 
continue to adjust staff back to their seats. Thank you, 
everybody, for bearing with us while we were able to produce 
the 113th Congress official photograph of the Veterans Affairs' 
Committee here in the House.
    Ms. Mooney, welcome to you.
    We are breaking ground here, I think, as most Members 
already know. This is the first hearing that I can recall that 
actually examines the relationship between our Committee and 
the Office of Congressional and Legislative Affairs which Ms. 
Mooney leads.
    I called this hearing in response to a growing frustration 
among Members in getting from your office what we need to do 
our work, whether it is the timely receipt of hearing 
testimony, responses to requests for information, or the 
quality of the information provided, we have concerns all the 
way across the board. Let me start with hearing testimony.
    Prior to an oversight hearing being called, it has long 
been a standing practice to provide the Administration with a 
minimum of two weeks advanced notice of the hearing topic and 
to request that testimony be delivered no later than 48 hours 
prior to that hearing.
    Receiving testimony 48 hours in advance permits the Members 
of this Committee and the staff the time to minimally look at 
that, gather the information that they need to carefully go 
through and read that testimony, and also to craft thoughtful 
questions.
    But whether VA has provided two weeks notice or two months 
notice, it seems that timely receipt of testimony is completely 
arbitrary. For example, you knew more than a month in advance 
that we were having a joint hearing with the Armed Services 
Committee on servicemember transition issues back in July, yet 
the testimony was received late in the afternoon on the day 
before the hearing.
    The fact that your testimony was received in a timely 
fashion today, two days ago, is a good first step, but of 
course, it is not surprising given the topic of this hearing, 
but from here we have got to have a 100 percent track record on 
getting testimony in a timely fashion. That should be the 
standard.
    Let me in turn, now, focus on information requests. We have 
grown so frustrated with the timely receipt of quality 
responses from VA, that we have had to taken extraordinary 
steps to ensure accountability. First, the Ranking Member and I 
launched a Trials in Transparency page on the Committee's Web 
site, detailing the number of outstanding VA requests.
    Second, I send weekly letters to the department, namely the 
Secretary, reminding them of all the pending requests. In 
total, we now have seventy, some of which remain well over a 
year old. What is more troubling is that many of the pending 
requests relate directly to ongoing Committee investigations 
into life safety issues at VA facilities. For example, on 
January 18th, 2013, I requested emails and documents pertaining 
to a deadly legionella bacteria outbreak at the Pittsburgh VA 
Medical Center. As of September 17th, no emails have been 
provided. Worse, I learned that the media was provided some of 
the same emails that I had requested in as few as twenty days.
    The days where VA is more responsive to the media than a 
Congressional Oversight Committee has to end, and if necessary, 
I will subpoena that information instead of going through the 
normal channels in trying to get that information from the 
central office.
    Given that five veterans are dead as a result of the 
outbreak, which VA's own Inspector General attributed to VA 
mismanagement, the Committee is engaged in an investigation 
into this matter to determine what went wrong and to ensure 
that it never happens again. Unfortunately, we haven't seen a 
similar sense of urgency from VA to help us with our 
investigative efforts. Rather, VA's reluctance to provide us 
with the information we have requested is actually impeding 
that process.
    Now, look, I understand that many of the delays we 
experienced are out of your office's control, but whether some 
other office within VA or OMB is to blame, your office exists 
as the first point of accountability. If there is a problem 
somewhere else, it is your job, Ms. Mooney, working with the 
Secretary, if necessary, to ensure that those problems are 
fixed.
    One final point before I conclude. Your testimony outlines 
the volumes of Congressional inquires your office responds to 
on a regular basis, but your office has also received a forty-
one percent increase in budget authority and a forty percent 
increase in staff since 2009. Resources have been provided, yet 
frustration persists on a bipartisan and a bicameral basis.
    If things don't improve materially, and I would like to 
work with you to develop some expectations moving forward, this 
Committee will have no choice but to reconsider the funding 
that your office receives. VA owes it to America's veterans and 
taxpayers to engage in an honest conversation about its past 
mistakes, the future challenges it faces and its capabilities 
for overcoming those challenges.
    Giving Congress timely access to the information it 
requests is an important part of that conversation. When VA 
drags its feet in providing information requested by Congress, 
it inhibits our ability to ensure that America's veterans are 
receiving the care and benefits that they have earned. Our 
veterans deserve a VA that sets the standard for openness, 
honesty and transparency. When the department fails to do so, 
it must answer for that failure. That is what today's hearing 
is all about.
    And now, I recognize the Ranking Member, Mr. Michaud, for 
his opening statement.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

          OPENING STATEMENT OF HON. MICHAEL H. MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman.
    As a title of this unusual hearing makes clear, Members of 
this Committee are frustrated and unhappy with VA's legislative 
affairs approach. That the Committee feels compelled to hold 
this hearing today should send a clear signal that the status 
quo is unacceptable.
    I am certainly aware that the VA receives a large number of 
Congressional inquiries and understand that VA is challenged in 
responding to over 435 Members of Congress and the Delegates 
that represents their respective territories.
    The high workload is not an excuse for the current 
situation which has gone on since 2009, which simply must 
change. If VA needs additional funding for more staff, we need 
to know about it. If VA needs to move around some of the 
300,000 employees it currently has, we must know about. If the 
VA needs to streamline the process in which it operates 
responding to a request, we need to know about it.
    We all want to do what is best for our veterans and in 
order to do the best job that we can, the Committee and the VA 
simply must have a relationship of trust and cooperation where 
we inform one another what our needs are to make sure that 
there is a flow of information quickly and is easily between 
us.
    It is my hope that this hearing will result in VA 
understanding our level of frustration with the current 
relationship, and that we seek real commitment from the VA to 
improve and change that relationship. I am hopeful that working 
together, we can chart a new course forward. For our part, the 
Committee must prioritize requests, accept some flexibility for 
achievable deadlines. We must recognize that from time to time, 
there might be a legitimate disagreement between the Committee 
and VA about the appropriate degree or scope of disclosure of 
request information. When such disagreements arise, it is 
incumbent upon VA to set forth its concerns in a timely manner 
and for us to listen with an objective mind.
    To set a new course forward, the VA's Office of Legislative 
Affairs need to make a real commitment to customer service by 
adopting a yes-we-will, rather than no-because attitude. VA 
OCLA needs to provide regular and ongoing communications 
regarding the status of our request. There is nothing more 
frustrating than having to keep checking back with VA on when 
we expect to get an answer from requests that we have had and 
the VA hearing, you know, if they don't give us any information 
at all.
    Realistic deadlines that are met by the VA are essential. I 
am willing to negotiate some due dates when, you know, time is 
critical for the VA to get more information, but we have to 
know that.
    Finally, moving forward, I would like to see VA OCLA adopt 
the rules of facilitator rather than a filter. There is a 
perception across the Congressional staff and, according to 
some reports, VA staff, that direct communication is taboo and 
everything must go through OCLA, and I can give you a personal 
example. Actually, one of my staffers spent two months over at 
the VA medical facility here in DC, and I just wanted to relay 
to Under Secretary Petzel that he received extreme, you know, 
excellent care. Unfortunately, when we try to get a hold of Dr. 
Petzel, we got to find out why do you want to talk to him, and 
it was just a simple thank you.
    And those are some of the things that we shouldn't have to 
go through, a lot of red tape, to be able to get that, you 
know, information over to the VA, and I do not discount the 
value a broad department-wide perspectives can add to a 
conversation. I do understand and agree that formal department-
level positions should be coordinated by OCLA. However, subject 
matter experts on both sides should feel free and comfortable 
to discuss their general basic issues, and I stand ready, and I 
know my colleagues on this Committee stand ready to sit down 
with VA and address our overdue requests and work together to 
come up with a real framework to govern our relationship going 
forward.
    This frameworks needs to be built around three goals--
customer service, timeliness and access. Those are the three 
goals, I think are important for an ongoing working 
relationship between this Committee, Congress, and the 
Department of Veterans Affairs.
    And once again, Mr. Chairman, I want to thank you for 
having this hearing today, and I yield back the balance of my 
time.

    [The prepared statement of Hon. Michael Michaud appears in 
the Appendix]

    The Chairman. Thank you very much. With us this morning, 
Members, is the Honorable Joan Mooney, Assistant Secretary for 
Congressional and Legislative Affairs with the U.S. Department 
of Veterans Affairs.
    Your complete statement will be entered into the record as 
a part of this hearing. And Ms. Mooney, you are now recognized 
for five minutes.

STATEMENT OF THE HONORABLE JOAN MOONEY, ASSISTANT SECRETARY FOR 
   CONGRESSIONAL AND LEGISLATIVE AFFAIRS, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

    Ms. Mooney. Thank you, Chairman Miller, Ranking Member 
Michaud, Members of the House Committee on Veterans Affairs.
    I appreciate the opportunity to testify today on VA's work 
to provide Congress with the information needed to fulfill its 
oversight responsibilities. VA and Congress share the same 
goal, to do everything we can to improve the health care, 
benefits, and other services delivered to our Nation's 
veterans, their families and survivors.
    Over the last few years, Secretary Shinseki and other 
senior VA leaders and I have welcomed the opportunity to meet 
with Members of this Committee and other Members of the House 
and Senate in your offices or back home to hear directly about 
your concerns and work together to provide better benefits and 
services.
    I recognize the frustration that Committee Members and 
staff sometimes feel regarding timely responses for requests 
for information and testimony. In many instances, I share this 
frustration. I respect the important oversight role that this 
and other Congressional committees play in our great democracy.
    Prior to coming to VA, I served on Capitol Hill for nearly 
two decades, including as chief of staff for a senior Member of 
this Committee. For that reason, I am uniquely aware of the 
demands placed on Members of Congress who seek to best 
represent their constituents and the responsibilities that come 
with their oversight.
    VA engages with Members of Congress on many fronts, as you 
know, at our VA medical facilities, benefits regional offices, 
and cemeteries across the Nation. There are VA staff who 
respond to local requests for information, site visits and VA 
participation at town halls and outreach events.
    VA's Office of Congressional and Legislative Affairs is 
staffed today by 46 dedicated professionals, up from 34 in 
2009, half of whom are veterans, a high priority of mine, that 
help facilitate one of the busiest Congressional Affairs 
offices in the Federal government.
    As the second largest Federal agency after the Department 
of Defense, VA provides care to approximately 6.3 million 
veterans and other beneficiaries, has 1800 points of health 
care, provides 3.6 million veterans with disability 
compensation and employs over 330,000 people. In short, VA 
touches every Congressional district in a way that is unique 
among Federal agencies.
    While we can and will do better, the Office of 
Congressional and Legislative Affairs has provided an 
incredible amount of information to Members of Congress. During 
the last three fiscal years through August of this year, the 
Office of Congressional and Legislative Affairs has supported 
over 80,000 requests. Those include VA officials testifying at 
over 260 Congressional hearings, conducting over 2,000 
Congressional briefings or meetings, responding to over 4,700 
questions for the record, managing nearly 300 GAO engagements, 
and facilitating over 75,000 Member inquiries.
    During the last 1.5 fiscal years, VA has responded to over 
4,700 formal policy-related requests for information and 
technical assistance on legislation. This includes 2,000 
responses in the first month of this fiscal year alone.
    Moving forward, VA is committed to looking for ways to 
improve performance in all its work.
    Internally, I have been meeting with senior leaders in 
order to find ways to better prioritize and expedite processes. 
We can, we must, and we will do better.
    Let me also offer some additional thoughts on how VA and 
the Committee can work better together to support veterans. We 
meet regularly with your staff to discuss ways to improve 
collaboration with the Committee, and I believe that these 
interactions have been productive. Here are some additional 
suggestions on how we can work better together. First, early 
collaboration between our staffs, both parties would benefit 
from discussion at the outset of the hearing process or a 
complicated information request. Second, a little bit of 
advanced knowledge of the Committee's overall agenda. Having a 
refined agenda on legislation would help VA prioritize requests 
and discussion on that is critical. Third, discussion on 
complexity of requests, sometimes a very large scale data 
request comes in and can be complex and may require extra time. 
In many cases, a slightly modified request can result in a 
faster, more accurate response, as well as manage expectations. 
Fourth, prioritization of those requests most important to this 
Committee. Unfortunately, sometimes the sheer volume of work 
that we receive impedes our ability to provide complete answers 
in a timely way. When that occurs, we want and need your input 
on which requests are most important to the Committee.
    While timeliness is an important metric, we believe that 
accuracy in the information we provide to Congress is at least 
as important. It is important for us to work together to ensure 
that requests are clear and focused, realistic timelines are 
set and adjustments are made to facilitate accurate and 
appropriate information delivered to this Committee.
    Regarding testimony timelines, while VA strives to meet the 
Committee's 48-hour advance submission rules, we cannot at 
times meet that deadline, most notably when a hearing is called 
with short notice or covers a complex subject. Hearings on 
policy or legislation can raise important, multifaceted and 
often new issues that require careful consideration by VA, and 
in some case, other agencies.
    In closing, VA and Congress share the same goal--to do 
everything we can to improve the health care benefits and other 
services delivered to our Nation's veterans, their families and 
survivors. This is what guides our work in providing an 
incredible volume of information to Congress on a daily basis. 
We can and must and will do better.
    VA will continue to look for ways to improve our efficiency 
and performance in responding to Congress, and I appreciate the 
opportunity to testify and am prepared to answer your 
questions.

    [The prepared statement of Joan Mooney appears in the 
Appendix]

    Mr. Chairman. Thank you very much. Your statement gives me 
many more questions to ask, but let me start off with just a 
couple for now.
    You have been the head of the Office of Congressional and 
Legislative Affairs for over four years, right?
    Ms. Mooney. Yes, sir.
    Mr. Chairman. All right. So I think it is safe to say that 
you have put your stamp on that office and the processes which 
that office follows, so let me quote excerpts from your 
confirmation hearing in the Senate, and then get your response 
to some of those statements.
    When asked what your office's role would be in the 
preparation of testimony for Congressional hearings, you 
responded that, ``It is my understanding that OCLA staff 
responsibility is to ensure that testimony is delivered in 
advance in a timely fashion.''
    Now, after frustration had been brewing for months for this 
Committee, we began formally tracking the testimony that has 
come to this Committee since April. Testimony has been 
delivered on time only eleven times out of twenty-one hearings 
that we have held. So first, I want to say, how would you rate 
OCLA's performance in this area?
    Ms. Mooney. I think the overall performance in the 
department on this area needs great improvement.
    Mr. Chairman. Who is responsible for the late testimony?
    Ms. Mooney. I take responsibility for testimony, sir.
    Mr. Chairman. Okay. Before you were confirmed, Secretary 
Shinseki had established a goal to respond to Congressional 
inquiries within two weeks, so when asked what you thought a 
reasonable timeline was, you indicated that, ``Standard 
response goals should range from the same day to two weeks.''
    How would your rank OCLA's performance in this area?
    Ms. Mooney. My office does not manage Congressional 
correspondence. We do have a twenty-four hour turn on our 
review of them.
    Mr. Chairman. Now, this is request for information.
    Ms. Mooney. Okay. On requests for information, I would say 
we provide a large amount as quickly as we can, and----
    Mr. Chairman. But how do you respond to the fact that the 
Secretary set a goal of two weeks, and we are far beyond that 
on many, many requests for information?
    Ms. Mooney. On correspondence and items that require ----
    Mr. Chairman. No, this is request for information. This 
should be relatively easy to churn out and give to the 
Committee.
    Ms. Mooney. On easy requests for information, that's true, 
sir. On more complicated requests that require 
interdepartmental concurrence or with our partners at Labor or 
Department of Defense, sometimes responses can take longer and 
that adds to the complexity.
    Mr. Chairman. A year? As long as a year?
    Ms. Mooney. Sometimes there are complex situations. If I 
can answer any specific questions or take them back, I am happy 
to do that.
    Mr. Chairman. I apologize. It is on our Web site and you 
get a copy of the letter that I send to the Secretary every 
week. You know what the outstanding requests are. Is it 
acceptable? Would you allow an employee within your purview to 
go as long as a year to give you the necessary information that 
you need to do your job?
    Ms. Mooney. I understand and appreciate your frustration 
and we work as hard as we can to move those responses out of 
the program offices and administrations and to you.
    Mr. Chairman. Okay. So you wouldn't take any action on an 
employee that went as long as a year to provide you the 
information you needed to do your job?
    Ms. Mooney. I understand your frustration, sir. I see it 
clearly.
    Mr. Chairman. Okay. Your testimony doesn't mention any 
metrics for how you evaluate whether or not you are achieving 
the two-week goal that you shared with the Secretary, nor does 
your budget submission for your office. And you mentioned at 
your confirmation hearing that one of the steps you would take 
is to establish a good tracking system of following up with 
people.
    So how long does it take on average to respond to requests 
for information according to your tracking system?
    Ms. Mooney. Our tracking system doesn't track time to 
respond. It tracks what items are outstanding at this point in 
time, and we work with the Committee as we can, Committee 
staff, to prioritize those requests. First priority is the 
Chairman and the Ranking Member and then other Members of the 
Committee, then other Members of the Congress.
    Mr. Chairman. On January 18th of 2013, we asked for 
documentation, including emails regarding the legionella 
outbreaks in Pittsburgh. As of this morning, very little 
information has been provided, and we received no emails. Yet, 
it is clear from newspaper reports and other news outlets that 
media received emails regarding the outbreak through the 
Freedom of Information Act. Why is the media receiving 
information, the same information we have asked for, quicker 
than this Oversight Committee?
    Ms. Mooney. Mr. Chairman, the media should not receive it 
quicker than you receive it. I don't know the nature of that 
data call, whether it was different or the same as this. I do 
know that the large scale data call that came in on emails was 
brought and we worked with your staff to scope it down. I know 
the work is in progress and the information should be 
forthcoming soon.
    Mr. Chairman. Okay. The fact remains that we have received 
no emails and the media got the information that they 
requested.
    Mr. Michaud.
    Mr. Michaud. Thank you, Mr. Chairman. Thank you, Ms. 
Mooney, for being here.
    As you indicated in your testimony, you have had the 
advantage of working on both sides of this issue. For those of 
us who have never worked in an executive agency, have never 
worked for a large bureaucracy, will you please briefly 
describe VA's process for responding to formal inquires from 
Congress. Walk us through what happens from when a request 
originally comes in, to when a response goes out.
    Ms. Mooney. Yes, Mr. Michaud, I will be happy to do that. A 
request comes in frequently to my office, or it comes, in 
general, to the Office of the Secretary or to any of our 
program office leads or Under Secretaries. It generally goes to 
their executive secretary to begin to process the request. 
Subject matter experts do the drafting, and then, if it 
requires any interagency, intra-agency coordination, it is 
done. My office signs off just to make sure it meets the intent 
of the letter, basically, and then the Office of General 
Counsel reviews for legal issues, the Office of Management may 
review for budget issues, and then the principal reviews and 
signs it.
    Mr. Michaud. And we often refer to formal and informal 
inquiries. Would you please describe what, you know, forms from 
your viewpoint, differentiates the two, formal versus informal?
    Ms. Mooney. Well, I would say, overall, having been on 
Capitol Hill, a two-week response to a letter is more 
reasonable. That was my vantage point then. Because a Member of 
Congress makes a statement, they may not require more 
information to answer a response.
    Here at VA, things require legal review, sometimes budget 
review, sometimes other reviews within the agency.
    Mr. Michaud. But what is the difference between a formal 
and informal? Is everything a formal request or ----
    Ms. Mooney. No. We handle, you know, as I said, 70,000 
requests for information over the last three-and-a-half-plus 
fiscal years through August of 13. A lot of those, many of 
those can be handled very quickly.
    One of the things that your staff and mine have worked on 
is briefings. Informal discussions and briefings are good. VA 
has gone from an, let us see, fiscal year 2010, 322 engagements 
with Members of Congress and their staffs to this fiscal year, 
through August, 891. Those informal conversations are very 
helpful.
    I also know that many of your staff have direct contact 
with folks in the field and throughout VA central office, and 
those provide informal communications as well.
    Mr. Michaud. Understanding that each request is unique, 
generally speaking, what is a reasonable timeframe for us to 
expect a response to formal requests and what about informal 
requests.
    Ms. Mooney. Informal requests I tried to hold to, since we 
are talking about my confirmation hearing, the oft repeated 
phrase in our office is what Senator Burr asked me, which is 
``will you try to tell me what I can have rather than tell me 
what I can't have?'' The goal is to get you as much as we can 
as easily as possible. So we will work towards briefings, et 
cetera.
    On a formal response, it depends on the subject matter and 
it depends on the prioritization of Committee rank. The 
Chairman letters go first, both for the House and the Senate.
    Mr. Michaud. Thank you, Mr. Chairman. I yield back.
    Mr. Chairman. Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    Secretary Mooney, thank you for joining us today.
    I will try to get through three questions really quickly. 
You described a process a minute ago, as to when a request 
comes in, what happens inside your office--well, actually 
inside the administration, to get answers.
    Just roughly, how many layers of concurrence does a typical 
question from a Congressional office go through in preparing a 
response?
    Ms. Mooney. As I noted, within VA, the subject matter 
expert looks at it. Then, somewhere within that office, 
probably someone looks at it then. If it is Congressional, you 
know, I just look at it; the Office of Management, if it is a 
fund-related request; for legal issues, the Office of General 
Counsel pretty much signs off on everything; and then that is 
pretty much layers.
    Mr. Flores. Okay. It is my understanding that many of the 
questions that come to the Hill that go through your office are 
sent by your staff out to the Legislative Affairs offices in 
each of the three VA administrations. What is your opinion 
about taking all those separate legislative teams and putting 
them together under one umbrella. Would that make the process 
more efficient?
    Ms. Mooney. Well, those folks that work legislative 
programs for offices and administrations, those are the people 
that help us collect the information in response to your 
questions, and we rely on their expertise. This office kind of 
serves a unique role, so let me take a familiar subject, CBOCs, 
right. If you call and ask me about a CBOC in your district, 
that is not just VHA. It is the Office of the Management, the 
Office of Acquisition, Logistics and Construction, of course, 
General Counsel for legal matters. So working together in 
collaborative session, we are able to expedite responses, so if 
there is a high priority and the Chairman articulates it, and 
he says it is his number one priority, we work to move that 
information as quickly as possible.
    Mr. Flores. Okay. And then you touched on this in general 
in your testimony. How do you triage a request that comes in, 
in terms of ranking it for the timeliness of the response?
    Ms. Mooney. We try to handle all of them as fast as we can. 
We prioritize certain requests, particularly requests from the 
chairs of Committees, but we prioritize them, we try to work 
the easy ones as quickly as possible. The more complex ones, we 
try to work with Congressional staff on the Committees to see 
if we can break it down into manageable pieces.
    Mr. Flores. Okay. And then the last question is, I mean, we 
have seen numerous incidents throughout the executive branch as 
a whole, as to the impact of politics and responses, and 
dealing with Congress, and dealing with the outside world. Tell 
me, has your office ever been asked by any senior leadership or 
by the White House to delay or to modify the response to 
request before an election or within six months of an election?
    Ms. Mooney. For my office, I am generally the final sign 
off for matters. You know, there are, as you know, OMB circular 
A19 requiring OMB review as well, but I know that on a regular 
basis, I work through deliverables, if not every day, almost 
every day, moving them through. If I don't do it, someone else 
in my office does it.
    Mr. Flores. Has the White House ever asked you to--have 
they ever edited one your responses to Congress?
    Ms. Mooney. Not to my knowledge.
    Mr. Flores. Thank you. I yield back.
    Mr. Chairman. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chair. And thank you, 
Secretary, for being here.
    I am a new Member of the Committee, a very proud Member of 
the Committee, and I just wanted to add my voice to what the 
Chair and the Ranking Member and their opening comments, I 
wanted to add my voice to their comments in terms of sharing a 
level of frustration about our oversight ability and working 
together.
    And as a new Member of Congress and a new Member of this 
Committee, I feel like I am in a Committee where both Democrats 
and Republicans are working very closely and collaboratively 
together for a common cause. And I know you and the leadership 
of the VA shares the same objectives. And it seems to me as 
though we should be the most productive Committee, in terms of 
getting to our goals, because we are all here sharing the same 
goals and working collaboratively. And as a consequence, 
sometimes it becomes, I think, frustrating. And Mr. Michaud's 
construct of what an effective VA department could be in terms 
of being customer service, being timely and being accessible, I 
think, are great parameters and goals of which we need to work 
towards, in order to ensure that we are servicing each and 
every one of our veterans, and all of their individual needs 
with kid gloves and with great care.
    So having said that, I had just a specific, a very specific 
question to you. I know a while back I wrote to the Under 
Secretary, Allison Hickey, with several of my colleagues 
actually from this Committee requesting the VA match California 
State's Joint Claims Initiative dollar for dollar. This is 
something that the state of California had proposed which would 
help tackle the over 60,000 pending claims in California.
    We sent that letter on June the 13th of 2013, and yet, we 
still have not received a response.
    I am sorry, I can't quite see you. I apologize for that.
    And my staff has contacted the VA, but we still haven't 
received a response yet, and the VA did indicate that they were 
still working on it, but it has been well over three months. 
And it puts me in a precarious situation, since I am trying to 
represent my state and their issues that--and they inquire with 
me, and I have to say, well, I have inquired with the VA, but I 
still, you know, haven't had a response.
    And so, you know, I guess the question is why. And the next 
question would be, is there anything that we as Members of 
Congress should do to help the VA to expedite this process?
    Ms. Mooney. I would say on this subject, I know it is of 
high interest to you. I will take it back to the Under 
Secretary. My sensing maybe it is a complex subject matter. It 
obviously involves resourcing issues, and so I will take it 
back to Under Secretary Hickey and ask for a quick response.
    Ms. Brownley. Well, I thank you for that and appreciate 
that very much.
    Secondarily, I know back on July 10th I think maybe the 
chair may have alluded to this, but on July 10th, the House 
Veteran Affairs Committee and the House Armed Services 
Committee held a hearing on DoD and VA collaboration to assist 
servicemembers returning to civilian life, and in the past, at 
least I have been told, that this has been a priority for both 
the Secretary of Veteran Affairs and the Secretary of Defense, 
but yet in that Committee hearing they were asked to attend and 
didn't attend, and sent some members of their staff to testify 
on their behalf. And that particular hearing was frustrating to 
me because the folks that did attend really couldn't address 
the questions that we were asking because we really needed the 
decision-makers, you know, at the table to be able to respond 
to some of our questions.
    And so I was wondering if you could explain the process by 
which the department really chooses who will testify on behalf 
of the agency, and what sort of preparation takes place in 
order to appropriately answer the questions for the Committee.
    Ms. Mooney. As you know, we do want to send the best 
witnesses and the most appropriate witnesses to answer your 
questions. First and foremost, when it involves programs within 
VA, we look to the best people to represent, also understanding 
our mission and ensuring that people who testify, as a small 
part of their duties, can actually continue to serve and do 
things. And the specific example that you offered, we at VA, 
when it involves interagency testimony at VA, our practice is 
to match witnesses. And I think, as you know, the Secretary is 
very dedicated to the issues at hand here and welcomes the 
opportunity to testify at any time.
    Ms. Brownley. Thank you. Thank you, Mr. Chair. I yield 
back.
    Mr. Chairman. Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman and Secretary Mooney. 
Thanks for your testimony.
    I will start off with a personal experience, actually 
chairing on the Subcommittee and sitting in that chair where 
Chairman Miller is sitting holding the gavel, and going through 
a hearing without testimony, going through a markup without 
testimony and actually having to ask unanimous consent to the 
other side, to allow it to go forward, until we get the 
information from you, so we can sit down with CBO, to get a 
score to see if it is even feasible to move the bill forward, 
and when you tie all this together and you start looking at 
everything we are talking about, it parallels all the other 
issues and the claims backlog in the VA. It is the same issue. 
Do you need more staff? Is it getting done right? Well, it is 
complicated. It is not getting all the way done. And it is, 
frankly, you have us waiting the same way you have a lot of 
veterans hanging out there. So it is something in the DNA in 
the VA.
    One question I have, can you provide--and this is about 
workload with your staff. How many inquiries, briefings, and 
hearings, does a representative usually have assigned to them 
at one time?
    Ms. Mooney. Oh, how many briefing hearings do you all have? 
Multiple ones----
    Mr. Runyan. Does your staff have assigned to them, at one 
time, workload basically?
    Ms. Mooney. Well, in terms of legislative hearings, that is 
an interesting viewpoint. I know in the case that you reference 
on DAMA, we have shorter notice than we normally have, and on 
legislative hearings, we have a team of about three people 
doing the work.
    Largely, our legislative views are managed through the 
Office of General Counsel, and our staff helps facilitate that 
activity. So with that, we know that there were--our statistics 
have fifty-three bills total, we are offered at eight 
legislative hearings, thirty-three completed on time or 62 
percent. If partial views are views without costs considered, 
VA, the total goes up to ninety of the bills. Of the fifteen 
bills in the category, fourteen needed cost only and five 
needed to be completed.
    The work on legislation is cyclical, and it depends on 
Congressional action. David Ballenger and Joanna Glaze of my 
office, do their best to manage these items with one program 
analyst, as well as my deputy, Bill Delaney, and myself, with 
our Office of General Counsel.
    The issue of legislative testimony delays and views and 
costs are something that we have discussed. They involve 
General Counsel, the Office of Management for us within VA and 
we know there is a challenge there. I have recently engaged, 
after this last round of bills, with the Office of General 
Counsel, with the General Counsel himself and his deputy to 
find a way to improve this process or to consider what changes 
need to made within the agency to facilitate faster views and 
costs.
    Mr. Runyan. Is there someone, either you or someone under 
you, that actually shepherds the request through the process, 
through all the different departments, or is it just put on 
someone else's desk and hope they get to it?
    Ms. Mooney. It is not that kind of issue. The legislative 
views are a little different. On oversight matters, we do 
shepherd every issue. On legislative items, that goes to our 
Office of General Counsel, where they collaborate with all the 
internal entities within VA to get it done. We set project 
management deadlines for them generally of when this is needed, 
but sometimes requests with short notice on legislative views 
that require either intra or interagency collaboration are 
challenged. We understand and recognize the big challenge this 
last summer, and we are working to change that process.
    Mr. Runyan. One last thing, talk a little bit about 
training, communication and professionalism. My staff has told 
me numerous times there are certain people that are awesome at 
getting back, responding, and there are other people that 
totally ignore phone calls, voice mails, emails. Is there a 
training regime you go through and how are these people being 
held accountable, and would they be held accountable if we were 
to turn their names over to you?
    Ms. Mooney. Absolutely. You know, we are a customer service 
organization. We serve the Secretary, but we also serve Members 
of Congress. So if there are issues with any members of our 
staff, I personally would like to know about them.
    Mr. Runyan. Thank you. Chairman, I yield back.
    Mr. Chairman. Ms. Negrete McLeod. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chair, and thank you for 
holding this hearing today. Appreciate that, and I want to 
thank the Secretary for being here.
    And I wanted to start out on a positive note. We have had 
numerous positive interactions with the VA and one that comes 
to mind is Steve Muro who is the Under Secretary for the 
Cemetery's Administration. We had a very detailed request 
related to the Fort Bliss Cemetery and he was incredibly 
responsive, and not just in a timely fashion, but in terms of 
the scope of his response. It was very helpful to us in getting 
back to our community because we are trying to hold you 
accountable. We are held accountable by our constituents, and I 
think that is where a lot of this is coming from.
    And I also wanted to single out your office and General 
Hickey who worked with Congressman Flores and myself as we met 
with the Texas delegation to address long wait times out of the 
Waco and Houston regional offices for service-connected 
disability claims, and I thought that was a productive meeting, 
responsive to our request and, again, a very positive example 
of how we can work together.
    To turn to the frustration that we have had in our office, 
and I want to address this in a cooperative, constructive 
fashion, we filed a bill that really followed the lead that the 
VA had set. It is called the Faster Filing Act, and it is a way 
to encourage, at no cost to the VA or the Federal Government, 
veterans to file fully developed claims online. It saves you 
money, the VA, in processing those claims, and it saves the 
veteran hundreds upon hundreds of days in getting a more timely 
response, and starting last month, a full year's retroactive 
benefit. So it is a win for everybody.
    We introduced the legislation in April. We met with a VBA 
Congressional liaison before we introduced it to vet it with 
them. We met with them through the process. When it came to 
Subcommittee for markup, there were no comments from the VA. 
When it went to Full Committee for markup, there were no 
comments from the VA.
    Along the process, because it is a no-cost solution that is 
going to improve things for everyone involved, we asked the VA 
to consider implementing the bill administratively.
    We got a response back to our request. So we introduced it 
on the 26th. Congressman Cook and I sent a letter June 19th, 
asking it be adopted administratively. We got a response back 
from the VA on September 10th, the day before a hearing where 
we were to discuss these issues with Tom Murphy, the director 
of Compensation Services.
    So that was frustrating in and of itself, the delay. What 
added insult to injury was the response said that your bill 
will add undue administrative burdens, it will delay our 
ability to get a veteran a timely response on their service-
connected disability claim. It will, in essence, make those 
veterans wait longer in line. It made no logical sense. It was 
given after the eleventh hour. It was incredibly unhelpful.
    So in the spirit of cooperation, how could we have handled 
that process better? What could we have done to get a response 
in a more timely fashion and to work through some of these 
issues before finding out after the fact that you all had a 
problem with it?
    Ms. Mooney. When we know things are going to be on the 
schedule for consideration, we should work together. I think in 
this case, we were challenged with a number of bills in the 
Senate and in the House at the same time, and we can and will 
do better on legislative views.
    Mr. O'Rourke. I appreciate hearing that. And I also wanted 
to follow up on one other thing that you said. You referred to 
yourself as a customer service organization, and I really like 
to hear that because I think that is the approach the VA should 
take with its constituents. It is the approach that we take in 
our office in El Paso, and we track every single constituent 
case that comes in the door. We age it immediately from the 
moment that we received that phone call or the person walks in 
requesting help. And then we hold, I hold, my staff 
accountable: Why has this been out there for ninety days, what 
are we doing, how do we escalate this, how do we get somebody's 
attention on this, why have we not been able to get back to 
this person with an answer?
    You said earlier that you do not have a tracking system. Is 
that something you are open to? I am a big believer that those 
things that we measure tend to improve. If you are not 
measuring response times, how do you expect it to get better?
    Ms. Mooney. We do measure response times on many items on 
requests for information. We have a knowledge management system 
where we do track them. We look at the date it came in, and 
regularly, we have collaborative sessions within VA to make 
sure regularly, on an almost daily basis, to make sure items 
are moving along.
    Mr. O'Rourke. So earlier you said you do not have a 
tracking system, but it sounds like you do.
    Ms. Mooney. No. I apologize for that. It is Congressional 
Knowledge Management System. It doesn't have all the features 
that I would like it to have and we are working to get to that 
point but, yes, on occasion, I do share printouts of our 
Congressional Knowledge Management System items with the staff 
directors of the Committee.
    Mr. O'Rourke. Okay, thank you.
    Thank you, Mr. Chairman.
    Ms. Mooney. Thank you.
    Mr. Chairman. Dr. Benishek.
    Mr. Benishek. Thank you, Mr. Chairman. I appreciate your 
calling upon me here now.
    Ms. Mooney, who in your department is in charge of making 
sure that you are in compliance with the 48-hour rule for 
getting the testimony before our Committee?
    Ms. Mooney. On the testimony, I am, sir.
    Mr. Benishek. You know, according to the information we 
have here, only like eleven of the twenty-one hearings have had 
their testimony brought in, you know, with the 48-hour rule in 
tact. So you don't have that task assigned to anyone else to be 
sure that these things occur?
    Ms. Mooney. The Congressional relations officer that 
manages the particular hearing does have a project management 
timeline at----
    Mr. Benishek. Is there not one person in your department 
that is in charge of making sure that, other than you, that is 
in charge of these things are done on time, somebody bird 
dogging these people to make sure that the testimony had gone 
on time?
    Ms. Mooney. I think that there are a number of people that 
do the bird dogging along the way, sir.
    Mr. Benishek. I know, but the problem to me is--see, this 
is all a management problem. Your department, as far as I am 
concerned, is not being managed properly because half the time 
you can't get your stuff done on time and there is nobody 
responsible for it except for you. I don't understand that. I 
mean, this is the problem we keep coming up against with the VA 
time and time again, that you acknowledge that there is a 
problem but, you know, we're working on it, but still it 
doesn't produce, and there is nobody responsible but you.
    Let me ask you another question. Have you had a bonus in 
the last year?
    Ms. Mooney. No, sir.
    Mr. Benishek. I am glad to hear that because I don't like 
the fact that there seems to be, you know, non-performance. I 
mean, if I were you, I would say that there should be somebody 
in my office who demands that the people get these testimony to 
our Committee on time. I mean, you are in charge of 
Congressional liaison. That should be your number one priority, 
is making sure that the stuff is here on time.
    Ms. Mooney. If I may, sir. So we do have people, my 
deputies, Chris O'Connor and Bill Delaney, work with directors 
and the Congressional Relations Officers. There are a number of 
people working very hard to ensure that concurrence and 
collaboration happens so that we get these through the 
appropriate Office of General Counsel, Office of Management if 
it has budget implications, and a few concurrences.
    Frankly, where we are challenged is, and all testimony 
needs to go to the Office of Management and Budget per OMB 
Circular A11, but I do want to emphasize, they are not 
generally----
    Mr. Benishek. Are you saying that is the problem is those 
guys?
    Ms. Mooney. No, sir. No, sir. They are not. They are 
partners in this. Not at all.
    Mr. Benishek. It sounds like there is too may partners 
there that you just can't do it because to me, you know, half-
time performance is not, you know, anything to be proud of that 
you can sit there and tell us how, yeah, we are working on it 
and there are all these things happening, but you know, we just 
can't, you know, it is just not happening.
    Ms. Mooney. Well, what I appreciate, Congressman, is 
Congressman Michaud's statement, Congressman Miller and others 
to work together to see if we can set realistic deadlines. 
Understand sometimes two-weeks notice and forty-eight hours 
advanced submission of testimony, if there is a chance that we 
can get a little more time on some hearings, I recognize that 
even sometimes on complex hearings that require interagency 
collaboration, it may require a little bit more time, but 
working together, we can get this done, I think.
    Mr. Benishek. Well, I appreciate what you are saying, but 
you know, my confidence is not that if we made it three weeks, 
then it would be all done on time. See, I don't have that 
confidence level from, what, you know, what I am seeing here 
since I have been here.
    Mr. Runyan was talking about, you know, trying to get some 
legislative hearing, important stuff done, and we don't have 
the information.
    Ms. Mooney. I understand, sir. In the past we have had--in 
the past few years even, we have had good records on on-time 
testimony and we will work to achieve that again.
    Mr. Benishek. I yield back the remainder of my time.
    Mr. Chairman. Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman and to the Ranking 
Member and Ms. Mooney. I thank you both for bringing us 
together on this. I think our constituents know that when we 
work together for a common goal, that is the way it is supposed 
to be and I can say, and I think everyone in here can say, 
there are very few places left that it works like this. We are 
partners for a common goal. Many of us share and work on 
legislation together. Many of us are friends, not all, but many 
of us are working together and get it done, but I can tell you, 
something happens in here, I can request something from the 
minority staff if I have a question or need something, I 
request it from the majority staff and they return it 
immediately as if it is a request from a veteran directly, and 
I know that is your goal, too. And I know there are so many 
good things that go on, but as I have always said, I am also, I 
will stand at the VA as your staunchest supporter, but your 
harshest critic when the time comes to get that.
    And this issue, if I could, like Mr. O'Rourke I think did a 
nice job, offering from some of the constructive criticisms. 
Mr. Runyan's point about many of the issues we are dealing with 
are echoed by our veterans the same way, and I think that is an 
interesting one, and I would just like to tell you this one. I 
introduced a bill with Senator Frank and they held a hearing 
over there on June 12th, and we were trying to get feedback 
from that. That was over three months ago. I got that feedback 
from your office on Tuesday. I got to be honest. I think it 
would have been better if you had not given it to me on Tuesday 
because I am somewhat skeptical of why I got it before this 
hearing.
    And I don't even care about the time to be honest with you. 
I understand, and you are telling us the constraints you have. 
What I am most concerned about is, is the lack of communication 
and expectations, and it is the same thing my veterans say. We 
don't know what is going on. We don't know what you are going 
to say, and I don't know when to expect it, so I am not 
complaining about the time. You are managing your workload. I 
would like to get it sooner, but it's kind of like, wow, it 
showed up this week, that's awesome. Well, it didn't help me.
    And then, I think a more pressing problem on this is, I 
could have written the response I was going to get because I 
knew what you were going to say and I don't think anybody 
listened to what we were putting out. This piece of 
legislation, by the way, is to speed the backlogs of claim. 
Everybody is trying to do this.
    I don't write these things just myself. The folks sitting 
behind you represent millions of people. They help me write it. 
The comments that I send and ask of you are coming from my 
veterans and they don't believe they are being heard. This 
piece of legislation came out of roundtables, facility tours 
and everything else, and let me give you an example here. 
Section 2 H.R. requires the VA to forego unnecessary disability 
rating examinations when sufficient medical evidence has 
already been submitted such as when a veteran submits a DBQ. 
You know that the rating examination is at the bottom there. It 
is one of the biggest ones that is causing us problems.
    But here is what the VA response says--well, this is 
totally unnecessary and duplicative. VA is already allowed to 
adjudicate a claim without an examination of evidence provided 
by that claim and its adequate for rating purposes.
    I know that. You are not doing it. That is why we put it in 
to make it a requirement. So the feedback came, nope, already 
got it covered, no problem with this, and it went on.
    Three months is one thing, but it was three months for an 
expectation I got that everything is just peachy. I didn't 
think of this idea. Millions of veterans over thirty years 
thought of the idea and I was dismissed three months later as 
that it was nothing, and I think--here is where I take issue 
with it. It appears to me totally disregarded or acknowledged 
that there are things that we can do better.
    Now, I know that goes beyond where you are sitting. The 
issue here is that the expectations, the information, the flow 
and all that. But just like Mr. Runyan said, it sets up the 
expectations to me I am being stonewalled, you know what is 
best, my veterans don't know, take this and we will get it to 
you when we can get it.
    I got to tell you, as someone I hope has developed a 
reputation for trying to get problems on this, is, that is a 
horrible precedence and put me in a position where I am really 
irritated that that would happened. I didn't know it was going 
to get there. When it got there, I expect that you are going to 
say we already got this and it is going.
    So I would just encourage, and on different hearings of 
trying to get things back to us, the Chairman, Ranking Member 
and other Members here are right. What we have to do--and 
again, I want to acknowledge this. There is incredible work 
happening at the VA. There are incredible things happening for 
our veterans, and I do not question anyone's commitment to 
getting it right for veterans, but something is not working in 
managing those expectations, getting information back.
    There are incredible things happening for our veterans, and 
I do not question anyone's commitment to getting it right for 
veterans, but something is not working in managing those 
expectations, getting information back.
    And I could have accepted this, if I would have thought 
someone actually looked at it; they did not. And my veterans, 
you go out right now, go out and every one of these members 
here, go on and ask your veterans if they think the VA is 
taking in private medical evidence to help speed their claim on 
that. They will laugh at you. They know that that is nonsense, 
and yet, I was told, no, no, don't do it.
    So now the problem is, I didn't get it in time. I don't get 
a hearing. There is no chance to vote on it. And here we are 
wondering what can we do about the backlog of claims? It is not 
my idea. It is the idea of the veterans who brought it forward.
    So I would just encourage us to figure out a better way to 
go about this. I think it--when I hear this folks here--when 
this--I have been in other Committees where people--it is 
disingenuous, Members of Congress complaining that we are not 
working together. I know that is an oxymoron to the public. I 
know they think that. That is not true in this place. Everyone 
in this room wants to work together. You and all of your staff 
wants to work together. So when we are telling you these 
things, they are in the spirit of constructive criticism to 
serve veterans.
    And I thank the Chairman and Ranking Member for making that 
available. I yield back.
    The Chairman. Thank you, Mr. Walz.
    Mr. Huelskamp, thank you for yielding your position in the 
questioning to Mrs. Walorski. She needs to leave and she has a 
specific question that she would like to ask. You are 
recognized.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Thank you.
    My question has been consistent. So I have been here nine 
months this month, and the question I had of Secretary Shinseki 
in January, February, was about a CBOC in my second district of 
the State of Indiana. Fifty-four thousand veterans in our 
district and I asked for the status of the CBOC, he looked at 
the guy next to him and he said, you know what, it is on time. 
And I said, can I have that in writing with a timeline?
    We have been waiting for eight months for that timeline and 
we have put repeated requests in through the staff of this 
Committee, through my office, and through our staff as well, 
and all we received last week was an amazing letter that now 
this whole project is delayed because an archaeological problem 
in the State of Indiana. And I can assure you there are no 
cities beneath the farmland in the State of Indiana. And then, 
I find out last week, the Governor's Office, the State of 
Indiana, has never been contacted about this NEPA permit that 
is holding up the process.
    So I am asking you today again in front of CSPAN and the 
veterans that are sitting in my district that need help and 
that need health care, when is this CBOC going to be built and 
when can we receive a timeline? Can I get a timeline by the end 
of close of business today?
    Ms. Mooney. Congresswoman, I will work to get you a 
timeline as quickly as possible.
    Mrs. Walorski. I have been waiting eight months.
    Ms. Mooney. I will work to do that today.
    Mrs. Walorski. And when will I receive the timeline?
    Ms. Mooney. I can't guarantee that I will have it today, 
but today I will----
    Mrs. Walorski. When will I receive it? Just give me a--will 
it be next week? Will it be Monday of next week? Will it be 
Friday of this week? When will I get a written timeline?
    Ms. Mooney. On the overall project, I will say----
    Mrs. Walorski. On the completion date and why there is a 
delay.
    Ms. Mooney. How about if I offer you why there is a delay, 
Congresswoman?
    Mrs. Walorski. How about when the completion of the project 
will be a timeline? It can't be that difficult. There is 
nothing in the soil in the State of Indiana that has anything 
other than farmland.
    Ms. Mooney. Congresswoman, we will make sure that we get 
something to you and I will personally call you and follow up 
on that.
    Mrs. Walorski. By?
    Ms. Mooney. If I can do it by mid-next week.
    Mrs. Walorski. Thank you.
    Thank you, Mr. Chairman.
    Thank you.
    The Chairman. Mr. Ruiz?
    Mr. Ruiz. Thank you, Mr. Chairman.
    Assistant Secretary Mooney, thank you for being here. I am 
going to take this opportunity to ask you some questions 
because you oversee the legislative staff, and I want to be 
able to ask you directly.
    This summer in my district, California's 36th District in 
the Coachella Valley area, eastern Riverside County, we 
launched a veterans initiative. We had multiple problem-solving 
veterans forums with hundreds of veterans coming together to 
talk about their issues, their priorities, and solutions, and 
what we can do together to implement those solutions.
    And during the veterans forums, I was informed that 
veterans had problems accessing VA medical services at other 
hospitals outside their region or their state. One anecdote 
shared at a forum was of a veteran who was in Las Vegas and 
could not receive services from the local VA hospital without 
first going through the cumbersome process of re-registering to 
receive services at the Las Vegas VA hospital.
    Can you tell me why a veteran would have to re-register? Is 
this VA established policy or is this required by actual law?
    Ms. Mooney. Congressman, I am happy to take that for the 
record and get you a full response from the Department.
    Mr. Ruiz. Okay. I appreciate that.
    And also in these veterans forums, one of the most common 
themes that I heard from my veterans is their lack of access to 
their health care records. My constituents are confused that 
very little is being done to address this, and one of the 
recommendations that was made, which would also address the 
claims backlog, is that the VA and the Department of Defense 
work together in some fashion to provide, as an exit 
consultation, the recent veteran, a disk of their medical 
records that they can have and present and work with the VA to 
have it done. Is anything of that sort being looked at, at this 
point and what do you recommend that we can do to work together 
to make that happen?
    Ms. Mooney. I am sorry, sir. Could you repeat that?
    Mr. Ruiz. So many of my constituents said they have 
difficulty acquiring their health care records. One, can the VA 
provide them a disk with their updated VA medical records upon 
request? Two, is oftentimes, when they leave the Department of 
Defense, become veterans, it takes a long time to get those 
records from the Department of Defense. Is there any work that 
we can do so the VA and the Department of Defense can ensure 
that the men and women in uniform who are going to become 
veterans receive their medical information in a disk?
    Ms. Mooney. I will get you a response for the record. 
Veterans can download some of their health care information 
through Blue Button and some other initiatives that VA has 
might help the veteran.
    And then on the other question with DoD, we work with our 
partners in the Department of Defense and I am happy to get you 
a response to an interagency request.
    Mr. Ruiz. I appreciate that. Thank you very much.
    Ms. Mooney. Thank you.
    Mr. Ruiz. I yield back my time.
    The Chairman. Are you next?
    Mr. Huelskamp?
    Mr. Huelskamp. Thank you, Mr. Chairman.
    A very quick question. Madam Secretary, how do you decide 
which request--which information request to simply ignore?
    Ms. Mooney. Requests are not ignored, Congressman.
    Mr. Huelskamp. Wouldn't you consider a 52-week non-response 
probably ignoring the question?
    Ms. Mooney. Congressman, I know there is a response--I 
think there is a response forthcoming to your letter.
    Mr. Huelskamp. Which letter do you refer?
    Ms. Mooney. I know you have a letter that is outstanding, 
sir.
    Mr. Huelskamp. Fifty-two weeks, is there--can you explain 
why you have ignored that question for--well, fifty-one-and-a-
half weeks, perhaps, Madam Secretary?
    Ms. Mooney. Congressman, I know that issue--that 
correspondence is being worked within the Agency and there will 
be a response forthcoming.
    Mr. Huelskamp. What is the topic that you are referring to, 
because there are a couple of different things out there?
    Ms. Mooney. Sir, I know that they are working to move all 
correspondence.
    Mr. Huelskamp. Can you explain why you wait 52 weeks? 
Seriously, 52 weeks, that is ignoring the response--that is 
ignoring the question, excuse me.
    Ms. Mooney. Congressman, sometimes responses have complex 
subjects and----
    Mr. Huelskamp. How much did you spend on the 2011 Golden 
Games? That is a figure; that is a dollar figure. Why have you 
chosen to ignore that question until maybe sometime in the 
future?
    Ms. Mooney. Congressman, we owe you a response to your 
request and I will make sure that happens.
    Mr. Huelskamp. Can you describe again--please, just answer 
the question. Why have you not answered that question for 52 
weeks and a list of numerous others? Have you just said, you 
know what, we don't like that question or we don't like--take 
your pick. I am just trying to get some insight of why you will 
ignore a very basic budget question and just say we don't care; 
is that the answer?
    Ms. Mooney. Congressman, we are working all the requests 
that are in front of us right now.
    Mr. Huelskamp. Ma'am, you have told me that for about 11 
months. Eleven months you have had people come over and tell me 
and tell the Committee and say we are working on those. Fifty-
two weeks we have talked over and over about working together 
and I just wish you would admit to the Committee why you are 
refusing to answer that question----
    Ms. Mooney. Congressman----
    Mr. Huelskamp. --and that has to do with the Golden Age 
Games.
    And something more recently that you have ignored is about 
100 days ago, questions that came up in a Subcommittee hearing 
about data insecurity at the VA, a very serious question, a 
hundred days I asked specifically who violated the security, 
what did you know about it?
    As you know, the VA was not forthcoming. It took a 
whistleblower to tell us what was going on there. But 100 days, 
is that--is a data insecurity that puts the data, personal, 
private, banking, and private health care information, makes 
that open to the world, is that something you can ignore for 
100 days?
    Ms. Mooney. Congressman, we will work to get you a response 
to your request. I understand and hear your frustration.
    Mr. Huelskamp. Do you not know the reason why you waited 
100 days or you are just not willing to share that with the 
entire Committee? I not only want a response, I want to know 
why you are ignoring the issue.
    Twenty million veterans had their private health care 
information breached and the Committee asked questions and the 
Subcommittee Chairman right here, no response, no answer. My 
constituents want to know. They are shocked and outraged by 
this occurrence, and it continues, it continues to grow, and 
they worry about what is going on at the VA where they won't 
even answer basic questions about that data insecurity.
    So your response is we will get to you or we will get to 
that?
    Ms. Mooney. Congressman, we will get you an answer to 
your----
    Mr. Huelskamp. Can you explain why you won't answer the 
question for 100 days or 52 weeks? I mean we have been trying 
to talk about what is the reason for this, rather than the 
basic questions. I don't understand how you can be in charge of 
a shop that can wait 52 weeks on something, basic budget 
matters, or 100 days on something as critical as private, 
personal, medical information breached by potentially nine 
foreign agents in numerous countries and no response, or do you 
know the answer to that and just can't share that here?
    Ms. Mooney. Congressman, I think as I mentioned earlier, my 
office does not manage correspondence. I am happy to take your 
requests back.
    Mr. Huelskamp. This is an information request, came from 
the Committee. It is on the Web site. The public, the world 
knows that you are ignoring the question, and I am just very 
frustrated that not only will you not answer the question, but 
you continue to give the same responses, we are going to get to 
it sometime in the future. You won't tell any of my colleagues 
when we are going to answer your questions. You won't even give 
us the courtesy of saying why you are refusing to answer those. 
It is the same old denial, and how can we work together? I 
mean, that is your responsibility, to answer these questions, 
and I guess you will sit here today to say, we will get back to 
you on that.
    So what I see coming out of this Committee hearing is 
another set of questions, another maybe a year before you 
respond. At the end of the day, 20 million veterans have their 
data breached and we have no answers on that and that is very 
serious. I think that is probably the most serious matter in 
here that is sitting in their unanswered questions by a 
multitude of folks, and it reflects very poorly on an 
Administration that is ready to put in the biggest health care 
system expansion in the world in just a few weeks, and the one 
that they are trying to run now with 20 million veterans and 
their dependents, and you can't answer how is it secure or how 
it is insecure, and by the way we will get back to you sometime 
in the future.
    Can you tell me when you might answer those questions?
    Ms. Mooney. Congressman, I understand and I hear your 
frustration. I will take back your concerns and we will get you 
a response.
    Mr. Huelskamp. So you don't know the answer?
    I don't care if you care about my frustrations. I really 
don't care about that. I want an answer. Americans want 
answers.
    Will you answer that question today? Just say yes or no. 
Just say, no, I refuse to answer your question.
    Ms. Mooney. I am sorry. I think I said, Congressman, we 
will get you a response to your question.
    Mr. Huelskamp. When, is the question.
    Ms. Mooney. As soon--I will work to get it soon.
    Mr. Huelskamp. The answer is no answer.
    Thank you.
    The Chairman. We will have another round of questions, Mr. 
Huelskamp.
    Did I understand you to say that the Office of 
Congressional and Legislative Affairs does not handle 
Congressional inquiries from Members?
    Ms. Mooney. We do handle inquiries. Correspondence is--
principals handle their own correspondence throughout the 
Agency.
    The Chairman. So your office has absolutely no idea when a 
Member of Congress writes to a principal asking for an answer?
    Ms. Mooney. Frequently, letters will come into our office 
and will go to----
    The Chairman. Now, if I write a letter to Dr. Petzel, you 
don't know that I wrote a letter to Dr. Petzel?
    Ms. Mooney. If it comes to my office for concurrence, yes, 
I do.
    The Chairman. So Dr. Petzel could answer that question and 
you would never know that I inquired or he answered the 
question?
    Ms. Mooney. On Congressional matters it would come to my 
office for concurrence.
    The Chairman. Well, I would think that a letter from a 
Member of Congress is a Congressional matter.
    Ms. Mooney. And it would come to my office for concurrence, 
yes.
    The Chairman. So you do see those letters and you don't 
track them? You don't track what Members of Congress are asking 
through letters of inquiry?
    Ms. Mooney. Within my scope of responsibility, which is 
concurrence on those, yes, Mr. Chairman, I do.
    The Chairman. So you do track the letters?
    Ms. Mooney. Having a letter come through for concurrence, 
yes.
    The Chairman. Would a letter not come through your office 
for concurrence?
    Ms. Mooney. That is accurate. Congressional letters go out 
throughout VA----
    The Chairman. So I would write a letter or any Member of 
this Committee could write a letter and it would not go through 
your office for concurrence?
    Ms. Mooney. No. If you were to--say you were to write a 
letter to your network director or, you know, a hospital 
director, we would not see that, no.
    The Chairman. Even I write letters to the Secretary and you 
respond. I am just a little confused.
    But Mr. Coffman, you are recognized for your questions.
    Mr. Coffman. Thank you, Mr. Chairman.
    Madam Secretary, I think you would like us to believe today 
that you are just incredibly incompetent. You know, I don't 
think that is true. I don't think you are incompetent. I think 
you are a very smart political operative, and I think what you 
have engaged in is a process of systematically covering up 
information that is embarrassing to the Veterans 
Administration. And I will tell you what, I think if General 
Shinseki keeps you on after this hearing, then he is also 
complicit in that cover-up, in that systematic process that you 
have engaged in since 2009.
    I have got a couple of questions here, but I think you are 
pretty smart and I know what you are doing. I think the first 
one on February 13th, 2013, Dr. Petzel told me that he would 
provide the results of an internal mental health survey by the 
close of business that day. As of today, no information has 
been received. Can you explain why the survey I requested has 
not been provided?
    Ms. Mooney. Mr. Coffman, I think I will go back and check 
on that and find out the status of it.
    Mr. Coffman. In a hearing this past March, I asked for 
release of the medical inspector reports regarding the medical 
facilities in Columbia, South Carolina, and Augusta, Georgia, 
prepared by Dr. Pierce and his staff, the Deputy Under 
Secretary for Health for Operations and Management at the VHA. 
The Deputy Under Secretary for Health for Operations and 
Management at the VHA committed to look into disclosure for the 
record. Nothing to date has been received. Please explain.
    Ms. Mooney. Congressman, I will look into that request for 
you.
    Mr. Coffman. Thanks.
    I got to tell you, I am, you know, I think it is such an 
affront to the men and women who have sacrificed so much for 
this country, who have worn the uniform for this country, that 
you are in this position. And I think it is also, in my view, 
an embarrassment to General Shinseki who has served this 
country honorably for over 30 years in the United States Army 
to have somebody like a political operative like you in this 
critical position engaging in this systematic cover-up on 
information that is embarrassing to the VA about the 
mistreatment of the veterans who serve this country. I just 
think it is extraordinary.
    And you are not who you appear to be today, this bumbling 
idiot, this incompetent manager. I know what you are engaged in 
and it is wrong.
    I yield back.
    The Chairman. Ms. Mooney, on the 18th of January of this 
year, the Committee asked for documentation including emails 
regarding the legionella outbreak at Pittsburgh. You have 
already heard me say the media got the answers to their 
questions before the Committee did. You responded that that 
should not have occurred. I don't know how it occurred. But, 
you know, we haven't received any of the emails yet, can you 
please explain why?
    Ms. Mooney. I can say in the case of Pittsburgh and the 
emailed documents, the requests came in. It was a rather--it is 
a large-scale data pull with--the goal was to focus and scope 
down search terms, et cetera, with the Committee, which we did, 
and the work is in process and on-going and the results should 
be forthcoming very soon.
    The Chairman. I think the words, probably, if you put 
``legionella'' and ``death'', those would be two pretty 
specific words that you could search pretty quickly.
    And, you know, again, to Mr. Coffman, we are not asking 
these for ourselves and our own benefit; we are asking on 
behalf of the veterans of this country----
    Ms. Mooney. Understood.
    The Chairman. --and every obstacle that the Agency puts up 
in front of us prevents us from doing our job in oversight.
    Let us go here. On the 19th of January of this year, we 
requested information regarding the Veterans Canteen Service. 
As of today, no information has been received, and what I want 
to hear from you is, what are the obstacles and where exactly 
in the bureaucracy does this obstruction occur?
    Ms. Mooney. Well, Mr. Chairman, I will say back to the 
legionella, even legionella being requested for a whole entire 
health--all employees in an entire health care network, plus an 
entire hospital and central office would be nearly impossible 
to fulfill. However----
    The Chairman. But it is not----
    Ms. Mooney. --we work with your staff----
    The Chairman. No, excuse me. I will take the time back.
    It is not impossible to do a data search like that. There 
are software companies all over this country that tell me that 
you can do a data search of information like that in a 
relatively quick fashion, and when I say ``relatively quick,'' 
I am talking about days, not months, and that is where we are 
at.
    I mean, we haven't received any emails. I mean, you would 
think you could start at least sending us the first tranche, 
the second tranche, so we could begin our process of sifting 
through those, just as you sift through them as well. I mean, 
we know that you are having to read them, you are wanting to 
read them so nothing else comes to this Committee that you are 
aware of that is embarrassing to the Department.
    On the 14th of May of this year, we requested all documents 
and emails related to VA's Office of Information and 
Technology's authority to operate, or ATO, including waivers of 
automated information systems from January of 2010 to the 
present. As of today, zero. No information has been provided. 
Why haven't we gotten any, any information from May?
    Ms. Mooney. Mr. Chairman, that work is ongoing and the goal 
is to get you the emails as soon as possible. We will have to 
talk to your staff about which data calls to prioritize. I 
understand the ATO emails at this point are first, and we are 
working to produce those right now.
    The Chairman. I do want to say that the Ranking Member and 
I requested from all Members of Congress incidents that they 
have had with your office in trying to gather information, and 
we received numerous responses from Members and some of them 
were pretty specific in the issues that they provided, and I 
will gladly make that information available to you with the 
caveat that you assure me that you and your office will work on 
solving and answering these issues and these problems.
    Ms. Mooney. Yes, Mr. Chairman. Thank you.
    The Chairman. Mr. Michaud?
    Mr. Michaud. Thank you, Mr. Chairman.
    I just wanted to comment today on a question. I just want 
to follow up on a comment that Ms. Brownley made earlier about 
the joint hearing we had with dealing with the transition from 
DoD and VA and trying to get veterans to work and we requested 
both secretaries to be at that hearing. And I was very critical 
of the fact that neither Secretary showed up at that hearing. 
And I found out later on--exactly, I did talk with Secretary 
Shinseki. He was willing to come. However, Secretary Hagel was 
not able to make it, so therefore, he did not come. So I do 
apologize to the Secretary--being so critical of him for not 
showing up. I was told that he refused to come, but that was 
not the case. So I think it is important to state that for the 
record.
    Ms. Mooney, the other question is, what authority do you 
have internally to the VA to get other parts of the Department 
to work Congressional inquiries quickly?
    Ms. Mooney. We do prioritize requests. We work to 
prioritize them for--within VA, the Chairman's requests come 
first, Committee Members. We work with program offices and 
administrations on a weekly basis to move all items, particular 
items that the Chairman and Members of the Committee have 
stated are priorities.
    Mr. Michaud. So, if you have a priority but BVA says that 
is not our priority and they stonewall that, do you have 
authority to have a response from BVA? I mean, I am just trying 
to figure out what authority you have over the different parts 
of your department.
    Ms. Mooney. I have the authority to speak with the Under 
Secretaries and the Assistant Secretaries of various program 
offices and administrations, and I do on a regular basis.
    Mr. Michaud. And do they have to respond--I know you can 
speak with them--but do they have to respond or can they say, 
well, that is not their priority and do something differently, 
or do they have to respond to your priorities?
    Ms. Mooney. Everyone takes Congressional oversight and your 
responsibilities very seriously. These are also people who are 
working to implement, direct, and manage programs, and direct 
services to veterans, so they are balancing priorities. We all 
work together to respond as quickly, completely as we can to 
Members of Congress.
    Mr. Michaud. Okay. My last question--and I know that you 
mentioned in your testimony and through questioning that 
sometimes testimony is late due to the complex, you know, 
policy questions that arises--you know, I can understand that, 
but what I can't understand is sometimes, you know, your 
testimony is late, at a later hearing that covers the same type 
of hearing that we have covered already in the past. So why is 
it--I can see if it is complex the first time around, but if 
later on we have another hearing in a similar issue that the 
testimony is late again, that is concerning. I know that you 
said that you definitely would do a better job in getting that 
information to us and I appreciate that and will definitely be 
keeping a close eye on it because as one Member of this 
Committee, I do like to read all of the testimony before the 
hearing. And it makes it problematic if we don't get it until 
the day before, as far as being able to go through the hearing, 
you know, for the next day. So I would encourage you to 
definitely try to stick with the timeframe that you said that 
you want to do it, within the 48 hours before the hearing, so 
we can get the--so we can do our job, but more effectively.
    So once again, I want to thank you for being here today. I 
looked forward to working with you, and I will just re-
emphasize, you know, customer service, access, and timeliness 
is extremely important.
    Thank you, Mr. Chairman.
    The Chairman. To follow-up on Mr. Michaud's line of 
questions, you had said in the last three, three and a half 
years that you have a good record on providing testimony in a 
timely fashion. Can you tell me how do you know. What is that 
record?
    Ms. Mooney. We do track these in the monthly performance 
review in the PAR and our strategic plan.
    The Chairman. So what is the record?
    Ms. Mooney. Let me pull that out for you. Actually, I can 
provide it for the record if you----
    The Chairman. Well, it would be nice if you make a comment 
that you've got a good record, that you could back it up for 
us.
    Ms. Mooney. Okay. I am sorry. I don't have that. Chris?
    Mr. O'Conner. Yeah, 98 percent, I think, in fiscal year 
2011 and 90 percent last year.
    Ms. Mooney. 90 percent last year and 98 percent in fiscal 
year 2011.
    The Chairman. I wholeheartedly disagree. There is no way. 
And if so, I would be very alarmed if I fell from 98 to 90 to 
50 percent. There obviously is a management problem somewhere.
    Ms. Mooney. And I appreciate that, Mr. Chairman.
    We work with this Committee and we work with many other 
Committees.
    The Chairman. I am talking about this Committee.
    Ms. Mooney. I will have to get that----
    The Chairman. And I would be very interested in knowing if 
other Committees get a higher percentage of timely testimony 
than this Committee gets.
    Mr. Huelskamp?
    Mr. Huelskamp. Thank you, Mr. Chairman.
    I just want to follow-up and make sure I understood a few 
of the responses or lack therein back on the issue of data 
insecurity.
    Are you aware of the Subcommittee hearing we had 100 days 
ago or 100--almost four months ago on this issue?
    Ms. Mooney. Yes, Congressman.
    Mr. Huelskamp. And you are aware of the questions that came 
forth from that Committee and have received all of those 
questions?
    Ms. Mooney. Those questions are being worked and will be 
provided to you.
    Mr. Huelskamp. Have you answered any questions that were 
submitted in response to that hearing?
    Ms. Mooney. Congressman, we are working to complete all of 
the tasks in front of us.
    Mr. Huelskamp. Have you answered any of the questions that 
were submitted?
    Ms. Mooney. Has VA answered any of questions? Sir, I would 
have to take that for the record and get back to you with that 
request.
    Mr. Huelskamp. Could you ask your assistant behind you? I 
mean it is a pretty simple question, did you answer any of 
them? Does anybody here--I mean who is here with you that can 
answer that?
    Ms. Mooney. Sir----
    Mr. Huelskamp. Anybody?
    Ms. Mooney. --I was called as the witness. Our office is a 
facilitator to get things done. What we do is, we work with the 
program office to answer your questions, to get answers to your 
questions, and we are working----
    Mr. Huelskamp. The Committee hearing is about not the 
answers; it is about answering the questions. It seems to be 
more about process.
    I just want, on this particular matter, which is of 
critical importance, do you know if any questions have been 
answered, and I guess the answer is no, you do not. You are not 
aware of any answer being submitted yet?
    Ms. Mooney. Congressman, we are working to answer all of 
the questions. VA is working to answer all the questions.
    As Congressman Michaud noted in his opening remarks, our 
office is a facilitator office.
    Mr. Huelskamp. Okay. Well, I am asking if you facilitated 
an answer, and it is pretty clear that you have not answered a 
single question about data breaches at the Department of VA, 
the database for twenty million veterans and their dependents.
    Do you think that is a critical issue if that database is 
insecure?
    Ms. Mooney. Congressman, I will get back with you----
    Mr. Huelskamp. No, the question was, do you think that is a 
serious issue?
    Ms. Mooney. Congressman, I am not an IT expert. I will get 
back with you with a response for the Department.
    Mr. Huelskamp. This is about like the failure to respond 
for 52 weeks. This is a pretty simple question, ma'am. Yes or 
no. Is it a critical issue if the database might be insecure?
    Ms. Mooney. Congressman, your questions are important and 
we will have answers to them.
    Mr. Huelskamp. How about this question? Is it important--do 
you think it is a critical issue if the database might be 
insecure?
    Ms. Mooney. Congressman, as I stated, we will work to get 
the answers to your questions.
    Mr. Huelskamp. Can you answer the one I just asked? Just 
say yes or no. Is it impossible to say no or yes?
    Ms. Mooney. Yes, it is critical.
    Mr. Huelskamp. Okay. And do you think waiting 100 days for 
Members of Congress and the people we represent to have an 
assurance that that data is secure is something that has to 
have an answer in a critical period of time, like days, instead 
of weeks and months?
    Ms. Mooney. Congressman, I will make sure that you get a 
request--excuse me--an answer.
    Mr. Huelskamp. And maybe you have missed this, I mean you 
are a facilitator, but we had testimony in the Subcommittee 
that foreign agents had accessed that database and when the VA 
was asked who they were--first after denying that the access 
took place. They had admitted in a Committee hearing. We asked, 
well, is the data secure now? Tell us how it is. Are we meeting 
those data security standards that are required in the private 
sector? Ma'am, we are 100 days past that.
    Do we know if we had 100 days of access to that data? I 
mean, where is that? I mean, the response has been from the 
Department in the hearing was this, if you have a problem, if 
somehow your financial records are compromised, we will provide 
you help to put it back together. But these are the kinds of 
things you might say well, that is not too important to get an 
answer to that, and I understand.
    All I am saying here is, ma'am, that is one that people are 
asking and demanding to know, and if the VA refuses to answer 
that question--which every day you don't answer is a refusal--
100 days later.
    Ms. Mooney. Mr. Huelskamp, Mr. O'Conner has let me know 
that we've briefed the Committee on that issue as well.
    Mr. Huelskamp. Can you tell me what the answer is then?
    Ms. Mooney. We have briefed the Committee on the issue and 
I will be happy to get you the information for the record with 
what we can do on that.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    I look forward to hearing about the briefing. Thank you.
    The Chairman. Thank you very much.
    We will follow up on that as well.
    And as a facilitator, who is responsible for making sure 
that testimony, inquiries, other information is provided to 
this Committee?
    Ms. Mooney. That responsibility lies with me, Mr. Chairman.
    The Chairman. Okay. So let us go back to some of the very 
first questions that I asked in regards to how do you, after 
hearing the comments today, how do you rate, grade your office 
on its performance with this Oversight Committee?
    Ms. Mooney. Mr. Chairman, I would rate us at a--I would 
rate us at a B minus, C plus overall for the three and a half 
years, and I have heard the concerns that the Committee Members 
have offered us today, and I look forward to continuing working 
to make improvements to get much higher than that.
    The Chairman. And I appreciate that candid remark, and I 
think the Ranking Member and all the Members of this Committee 
want nothing more than the information that we request. We are 
requesting many, many times on behalf of veterans and 
constituents that we have in our own constituencies and then, 
of course, each of our Subcommittees has questions as well.
    And before I adjourn, I would like to ask if Mr. Bilirakis 
has any questions that he wants to ask.
    Mr. Bilirakis. No, I think I am fine.
    The Chairman. Okay. Thank you very much.
    So, do you commit to testimony being delivered 100 percent 
on time?
    Ms. Mooney. That is our goal, Mr. Chairman.
    The Chairman. And you have fallen woefully short of that 
goal this year, correct?
    Ms. Mooney. That is my goal. That is what we strive to 
achieve and we will--we can and will do better.
    The Chairman. And so have you met that goal this year?
    Ms. Mooney. No, Mr. Chairman, we have not.
    The Chairman. Do you reaffirm that the two week standard on 
information requests can be met?
    Ms. Mooney. I would ask for collaboration on that.
    The Chairman. Well, you know, interestingly enough, we give 
you collaboration and you took a shot at this Committee a 
little while ago by saying that we did not notice the hearing 
on time when, in fact, you were informally notified that there 
was going to be a Committee hearing, although you did not get 
the formal notice, so you were aware that it was going to take 
place.
    And the other thing, I think it is interesting is, you say 
you don't know what this Committee is focusing on. Every year, 
we do a report, that you should have a copy of, that tells you 
what we are going to focus on. Now, if five veterans, maybe 
six, die in Pittsburgh because of a legionella outbreak, we may 
shift the focus just a little bit, but, you know, we will work 
with you. But I think it is very clear that you need to do a 
much better job working with this Committee in providing it the 
information it needs in order to do our job.
    Mr. Michaud, anything you would like to say?
    Mr. Michaud. No, thank you.
    The Chairman. All right. With that, all Members will have 
five legislative days with which to revise and extend their 
remarks.
    Without objection, so ordered.
    This hearing is adjourned.

    [Whereupon, at 11:39 a.m., the Committee adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jeff Miller, Chairman

    This hearing will come to order. Good morning, everyone.
    Ms. Mooney, welcome to you. We're breaking new ground here. This is 
the first hearing I can recall examining the relationship between our 
Committee and the Office of Congressional and Legislative Affairs, 
which you lead.
    I called this hearing in response to a growing frustration among 
Members in getting from your office what we need to do our work. 
Whether it is the timely receipt of hearing testimony, responses to 
requests for information, or the quality of the information provided, 
we have concerns across the board.
    Let me start with hearing testimony. Prior to an oversight hearing 
being called, it has been long-standing practice to provide the 
Administration with a minimum of two week's notice of the hearing 
topic, and to request that testimony be delivered no later than 48 
hours prior to a hearing. Receiving testimony 48 hours in advance 
permits Members and staff the minimum time necessary to not only 
carefully read the testimony, but also to craft thoughtful questions.
    But whether VA is provided two week's notice or two month's notice, 
it seems the timely receipt of testimony is completely arbitrary. For 
example, you knew more than a month in advance that we were having a 
joint hearing with the Armed Services Committee on servicemember 
transition issues back in July, yet the testimony was received late in 
the afternoon on the day before the hearing. Ms. Mooney, the fact that 
your testimony for today's hearing was submitted on time is a good 
first step - not surprising given the topic--but there must be a 100% 
track record going forward. That ought to be the standard.
    Let me turn now to information requests. We've grown so frustrated 
with the timely receipt of quality responses from VA that we've had to 
take extraordinary steps to ensure accountability. First, the Ranking 
Member and I launched a ``Trials in Transparency'' page on the 
Committee's Web site detailing the number of outstanding VA requests. 
Second, I send weekly letters to the department reminding them of all 
of the pending requests. In total, we now have 70 pending, some which 
remain well over a year old.
    What is more troubling is that many of the pending requests relate 
directly to ongoing Committee investigations into life safety issues at 
VA facilities. For example, on January 18, 2013, I requested emails and 
documents pertaining to a deadly Legionella bacteria outbreak at the 
Pittsburgh VA medical center. As of Sep 17, 2013, no emails had been 
provided. Worse, I learned that the media was provided some of the same 
emails I requested in as few as twenty days. Ms. Mooney, the days where 
VA is more responsive to the media than a Congressional oversight 
Committee must end.
    Given that five veterans are dead as a result of the outbreak, 
which VA's own inspector general attributed to VA mismanagement, the 
Committee is engaged in an investigation into this matter to determine 
what went wrong and ensure it never happens again. Unfortunately, we 
haven't seen a similar sense of urgency from VA to help us with our 
investigative efforts. Rather, VA's reluctance to provide us with the 
information we have requested is actually impeding our progress.
    Now, I understand that many of the delays we experience are out of 
your office's control. But, whether some other office within VA or OMB 
is to blame, your office exists as the first point of accountability. 
If there is a problem somewhere else, it is your job, Ms. Mooney, 
working with the Secretary if necessary, to ensure they are fixed.
    One final point before I conclude. Your testimony outlines the 
volumes of Congressional inquires your office responds to on a regular 
basis. But your office has also received a 41 percent increase in 
budget authority and a 40 percent increase in staff since 2009. 
Resources have been provided, yet frustrations persist on a bipartisan 
and bicameral basis. If things don't improve materially - and I'd like 
to work with you to develop some expectations moving forward--we'll 
have no choice but to reconsider the funding your office receives.
    VA owes it to America's veterans and taxpayers to engage in an 
honest conversation about its past mistakes, the future challenges it 
faces and its capabilities for overcoming those challenges. Giving 
Congress timely access to the information it requests is an important 
part of that conversation. When VA drags its feet in providing 
information requested by Congress, it inhibits our ability to ensure 
America's veterans are receiving the care and benefits they have 
earned. Our veterans deserve a VA that sets the standard for openness, 
honesty and transparency. When the department fails to do so, they must 
answer for that failure. That's what today's hearing is all about.
    I now recognize the Ranking Member for his opening statement.

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud

    Thank you, Mr. Chairman.
    As the title of this unusual hearing makes clear, Members of this 
Committee are frustrated and unhappy with VA's legislative affairs 
approach. That the Committee feels compelled to hold this hearing today 
should send a clear signal that the status quo is not acceptable.
    I am certainly aware that the VA receives a large number of 
Congressional inquiries, and I understand VA is challenged in 
responding to the over 535 Members of Congress.
    But high workload is not an excuse for the current situation which 
has gone on since 2009, and which simply must change. If VA needs 
additional funding for more staff we need to know. If VA needs to move 
around some of the 300,000 employees it currently has then it must do 
so.
    We all want to do the best we can for our veterans. In order to do 
the best job we can, the Committee and the VA simply must have a 
relationship of trust and cooperation, where information flows quickly 
and easily between us.
    It is my hope that this hearing will result in VA understanding our 
level of frustration with the current relationship and that we seek a 
real commitment from VA to improve and change.
    I am hopeful that, working together, we can chart a new way 
forward.
    For our part, the Committee must prioritize requests and accept 
some flexibility for achievable deadlines. We must recognize that, from 
time to time, there may be legitimate disagreements between the 
Committee and VA about the appropriate degree or scope of disclosure of 
requested information.
    When such disagreements arise, it is incumbent upon VA to set forth 
its concerns in a timely manner, and for us to listen with an objective 
mind.
    To set a new course forward, the VA's Office of Legislative Affairs 
needs to make a real commitment to customer service by adopting a 
``yes, we will'' rather than a ``no, because'' attitude. VA OCLA needs 
to provide regular and ongoing communications regarding the status of 
our requests. There is nothing more frustrating than having to keep 
checking back with the VA on when we can expect answers, and the VA 
having no answers to give us.
    Realistic deadlines that are met by the VA are essential. I am 
willing to negotiate some due dates on less time-critical requests, but 
when VA agrees to a due date, I expect it to be met.
    Finally, moving forward, I would like to see VA OCLA adopt the role 
of facilitator rather than filter. There is a perception across 
Congressional staff and, according to some reports, VA staff, that 
direct communication is ``taboo'' and everything must go through OCLA.
    I do not discount the value a broad Department-wide perspective can 
add to a conversation. I understand, and agree, that formal Department-
level positions should be coordinated by OCLA. However, subject matter 
experts on both sides should feel free and comfortable to discuss 
general, basic issues.
    I stand ready, and I know my colleagues stand ready, to sit down 
with the VA and address our overdue requests and work together to come 
up with a real framework to govern our relationship going forward.
    This framework needs to be built around three goals: customer 
service, timeliness, and access.
    Thank you Mr. Chairman, and I yield back.

                                 <F-dash>
                  Prepared Statement of Joan M. Mooney

    Chairman Miller, Ranking Member Michaud, Members of the House 
Committee on Veterans' Affairs: I appreciate the opportunity to testify 
on the Department of Veterans Affairs' (VA) work to provide Congress 
with the information and assistance it needs to fulfill its oversight 
responsibilities as well as be responsive to constituents.
    VA and Congress share the same goal: to do everything we can to 
improve the health care, benefits and other services delivered to our 
Nation's Veterans, their families, and Survivors earned through 
service. That is what guides our work in the Office of Congressional 
and Legislative Affairs (OCLA) in central office and throughout the 
broader VA health, benefits, and memorial affairs operation across the 
country that also work with congressional offices every day.
    As Assistant Secretary for Congressional and Legislative Affairs, 
service to both Veterans and Congress is engrained in who I am. My 
father was an Atomic Veteran who passed away from cancer linked to his 
service. My mother was his primary caregiver who predeceased him 
putting his healthcare needs before her own. I personally understand 
the importance of the services VA provides.
    I also understand the important oversight role that this and other 
congressional committees play in our great democracy. Prior to coming 
to VA, I served on Capitol Hill for nearly two decades, including for a 
senior Member of this Committee. For that reason I am aware of the 
demands placed on Members of Congress who seek to best represent their 
constituents and the responsibilities that come with oversight.
    Over the last few years, Secretary Shinseki, other VA senior 
leaders and I have welcomed the opportunity to meet with Members of 
this Committee and other Members of the House and Senate, in your 
offices or back home to hear directly about your concerns and learn how 
VA can improve services for Veterans. For example, annually, Secretary 
Shinseki and I request meetings, either one on one or in small groups, 
with Members of this Committee as well as Members of the Senate 
Committee on Veterans Affairs and Senate and House Appropriations 
Subcommittees on Military Construction, Veterans Affairs, and Related 
Agencies. Through meetings in informal settings as well as committee 
hearings and roundtables, VA seeks to engage this and other related 
committees regularly.
    I understand Congress' need for timely and accurate information 
about developments affecting Veterans policy nationally or locally. I 
also understand the importance of receiving information in advance of 
an upcoming hearing or mark-up.
    VA recognizes the frustration that Committee Members and staff have 
regarding submission of testimony. While VA strives to meet the 
Committee's 48-hour in advance testimony submission rules, we at times 
cannot meet the timeline, particularly when a hearing is called with 
short notice. Hearings on policy or legislation raise important, 
complex and often new issues that require careful study and 
consideration by VA. Let me state our continued desire to work with the 
Committee to improve timely delivery of VA testimony and on more 
advance lead time for hearings.
    As I stated earlier, accuracy in the information we provide to 
Congress is a top goal and so while we have and continue to provide a 
significant volume of information to Congress, quality is just as 
important as quantity. Some of the information requested may include 
data the Department does not collect or does not collect in the form 
that is being asked. As a result, certain requests may require VA to 
conduct data calls, taking time and resources and impacting the ability 
to process other requests. That is why it is important for us to work 
together to ensure that the requests from the Committee are 
appropriately structured so that it is very clear what is being asked 
for, realistic timelines can be set, and adjustments can be made to 
facilitate getting the information to the Committee. These discussions 
are also important so that the time of subject matter experts in the 
field or VA central office who may be asked to compile and assemble 
much of the information, be managed in the most efficient and effective 
manner possible allowing them to balance their day to day work with 
responding to these important requests.
    Our mission in OCLA is to improve the lives of Veterans, their 
families and Survivors. We do that by fostering a productive working 
relationship with Members of Congress, their staffs, and committees, 
keeping them abreast of policy matters and programs, and helping VA 
better understand and engage with Congress.
    As all of you know from firsthand experience, VA engages with 
Members of Congress on many fronts. At our medical facilities, benefits 
regional offices and cemeteries across the country there are VA staff 
that respond to local congressional requests for information, site 
visits and tours, and VA participation at congressional town halls and 
outreach events, among many other types of requests.
    VA's OCLA, based in central office, is staffed by 46 dedicated 
professionals that help operate one of the busiest congressional 
affairs offices in the Federal government. Today OCLA's staff includes 
23 Veterans, representing 50 percent of our workforce, an increase of 
39 percent since I began my service as Assistant Secretary. Increasing 
the number of Veterans working in OCLA has been a longstanding goal of 
mine as Veterans and family members of Veterans bring firsthand 
experience to our daily work. Our staff also includes many individuals 
with prior work in congressional offices or Veterans Service 
Organizations and advocacy groups.
    As the second largest Federal agency after the Department of 
Defense, VA provides care to approximately 6.3 million Veterans and 
other beneficiaries, has 1,800 points of care, provides 3.6 million 
Veterans with disability compensation, and employs over 330,000 people. 
In short, VA touches every Congressional district in a way that is 
unique among Federal agencies. From the conception to the opening of 
Community Based Outpatient Clinics (CBOC), to the status of VA's effort 
to eliminate the disability compensation claims backlog, to providing 
information on VA's successful home loan program that kept Veterans in 
danger of foreclosure in their homes, to technical assistance to 
Members of Congress on their draft legislation, our office both 
proactively provides and responds to a broad swath of requests for 
information from Congress. Each week, VA also sends several e-mail 
communications to Washington, D.C. and district contacts in 541 Member 
offices and congressional committees, containing information on VA 
policies, programs, and funding announcements such as VA grants to 
community organizations providing services to homeless and at-risk 
Veterans and their families.
    Just within VA central office, OCLA provides a large amount of 
information to Congress. During the last three fiscal years and through 
August 2013 OCLA has provided or responded to over 80,000 congressional 
requests. Those include: VA officials testifying at over 260 
congressional hearings; conducting over 2,000 congressional briefings 
or meetings; responding to over 4,700 questions for the record; 
processing over 75,000 Member inquiries - separate from casework done 
by local congressional offices with VA's regional offices, medical 
facilities, and cemeteries; and managing nearly 300 GAO engagements, 
leading to 175 draft and 98 final reports.
    Since the office began collecting data on formal policy-related 
requests for information, during the last one and one half fiscal years 
VA has responded to over 4,700 of such requests. During the first six 
months of Fiscal Year 2013, VA responded to over 2,000 formal requests 
for policy-related information and technical assistance requests on 
legislation.
    In recent years, VA has begun receiving oversight requests from 
this and other committees for e-mail records of VA employees. These are 
a new type of congressional request for information for VA and require 
a very labor and resource-intensive process. For example, this 
Committee's request for e-mails and documents related to the VA's 
Pharmaceutical Prime Vendor (PPV) contract required the review of 
hundreds of thousands of e-mails and documents and resulted in over 
34,500 relevant e-mails and documents being delivered to the Committee. 
In fulfilling this data request, VA dedicated a team of employees that 
worked for over 2300 hours to complete the task. For a request for 
another committee, to date, VA provided over 34,900 e-mails and 
documents related to the 2011 VA Human Resources Training Conferences 
in Orlando, Florida. A team of employees has been dedicated to this 
work for significant portions of the last year and this data pull 
effort continues.
    While the above information captures much of the Office of 
Congressional and Legislative Affairs' functions, so as to provide a 
full picture of our work, including those areas where data is not 
collected or applicable, let me also describe our areas of 
responsibility. They include:

    <bullet>  Managing technical feedback to draft legislation proposed 
or being considered by all congressional offices, and especially the 
authorizing committees;
    <bullet>  Managing all hearings before Congress, including field 
hearings;
    <bullet>  Responding to requests for information (including phone, 
e-mail, walk-ins), meetings, and briefings from Members, staff and 
committees on many subjects;
    <bullet>  Managing select congressional casework requests;
    <bullet>  Notifying congressional offices and committees of changes 
in VA policy, local and national announcements and related information;
    <bullet>  Managing departmental congressionally mandated reports;
    <bullet>  Developing VA's legislative proposals;
    <bullet>  Leading engagements with the Government Accountability 
Office (GAO) including the management of reports requested by Congress 
each year;
    <bullet>  Coordinating congressional oversight travel to VA 
facilities across the country;
    <bullet>  Organizing and holding training for congressional staff 
working Veterans' policy matter as well as casework;
    <bullet>  Organizing and holding educational briefings for 
congressional staff on a rotating series of topics related to VA health 
care, benefits, and services;
    <bullet>  Supporting VA officials in their meetings with Congress; 
and
    <bullet>  Leading the confirmation process for presidential 
nominees requiring Senate confirmation.

    In OCLA, our customer base is also broad. In addition to our 
authorizing committees there are many congressional entities we engage 
with and a number of committees that conduct Veteran - related hearings 
and oversight work. Our customers include 541 Member offices; House and 
Senate Committees on Veterans' Affairs; GAO; Congressional Research 
Service; Congressional Budget Office; and other congressional 
committees including Senate and House Appropriations Subcommittees on 
Military Construction, Veterans Affairs, and Related Agencies; House 
and Senate Armed Services Committees; House Committee on Oversight and 
Government Reform; Senate Committee on Homeland Security and Government 
Affairs; House and Senate Budget Committees and many other House and 
Senate committees.
    I endeavor to meet regularly with each of the Staff Directors of 
the House and Senate Committees on Veterans' Affairs, majority and 
minority, to provide an opportunity to engage and speak about important 
issues, review or prioritize outstanding items, and discuss 
developments in the Congress and in the Department. These interactions 
are in addition to communications over the phone or e-mail. I am 
personally committed, as is the Department, to work collaboratively 
with Congress. This is reflected in the efforts to engage, meet with 
and respond to Members of Congress and staff by all VA employees here 
in central office in Washington and those at our medical centers, 
CBOCs, benefits regional offices and cemeteries nationwide.
    In conclusion, VA and Congress share the same goal: to do 
everything we can to improve the health care, benefits and other 
services delivered to our Nation's Veterans, their families, and 
Survivors. That is what guides our work in providing an incredible 
volume of information to Congress on a daily basis.
    I appreciate the opportunity to testify and am prepared to answer 
any questions you may have.

                                 <F-dash>
                        Statement For The Record

   Response Letter From: Hon. Joan M. Mooney, To: Hon. Bill Flores' 
                            Hearing Question
    September 24, 2013

    The Honorable Jeff Miller
    Chairman
    Committee on Veterans' Affairs
    U.S. House of Representatives
    Washington, DC 20515

    Dear Mr. Chairman:
    Upon reviewing the hearing video recording and the unofficial 
transcript from the September 19 full Committee hearing, I am writing 
to clarify a response I gave to a question from Congressman Flores. 
Senior VA leadership are ultimately responsible for, and have the final 
say on, correspondence sent to Congress. However, there are occasions 
when VA may consult with other executive branch entities, including the 
White House, on some correspondence such as letters which concern 
interagency matters, transmission of official views on legislation, 
responses to letters on the President's behalf and letters on some 
administration policy priorities. I would ask that this letter be made 
an official part of the record and I appreciate the opportunity to 
provide this information.

    Sincerely,

    Joan M. Mooney

    cc:

    The Honorable Michael M. Michaud
    The Honorable Bill Flores

                                 <F-dash>
                        Questions For The Record

 Questions and Responses From HVAC, To: Department of Veterans Affairs
           Questions for the Record from Chairman Jeff Miller

    Question 1: On Jan 18, 2013, the Committee asked for documentation, 
including emails regarding the legionella outbreak and as of today, 
very little has been provided, including no emails. Yet, it is clear 
from news reports that media received emails regarding the outbreak 
through the Freedom of Information Act. Why is the media receiving 
access but not the Committee? Please provide the Committee with a 
schedule of when the information will be received.

    VA Response: The Department of Veterans Affairs (VA) strives to 
provide Congress with accurate and timely responses to requests for 
information. On October 28, 2013 VA delivered the requested e-mails 
regarding the Legionella outbreak at VA Pittsburgh to the Committee. In 
recent years, VA has begun receiving oversight requests from this and 
other committees for e-mail records of VA employees. These are a new 
type of congressional request for information for VA and require a very 
labor and resource-intensive process and impact the ability to process 
other requests.
    VA has been forthcoming in providing Congress with information on 
the outbreak of Legionella at VA Pittsburgh. VA received the first 
request for information in late November 2012. Since early December 
2012, VA has made 4 notifications regarding Legionella at VA Pittsburgh 
to its congressional oversight committees and the Pittsburgh area 
congressional delegation, provided responses to 33 separate requests 
for information from Members of Congress and committee staff that 
included responses to 79 questions and numerous documents. VA has also 
conducted 18 briefings on the subject to Members of Congress or 
congressional staff and testified at two House Veterans' Affairs 
Committee (HVAC) hearings. Of the 79 questions responded to and 18 
briefings provided, 51 questions were from HVAC and 9 briefings were to 
HVAC committee staff.
    In regards to media receiving information on Legionella through the 
Freedom of Information Act, these requests were made by local media and 
processed and responded to by Pittsburgh HCS.

    Question 2: On January 19, 2013, this Committee requested 
information regarding the Veteran Canteen Service. As of today, no 
information has been received. Please provide the Committee with a 
schedule of when the information will be received.

    VA Response: On October 31, 2013, VA provided information regarding 
the Veteran Canteen Service to the Committee.

    Question 3: On May 14, 2013, O&I requested all documents and e-
mails related to VA's Office of Information and Technology Authority to 
Operate (ATO), including waivers of automated information systems from 
January 2010 to present. As of today, no information has been provided. 
Please provide the Committee with a schedule of when the information 
will be received.

    VA Response: As stated in question 1, in recent years, VA has begun 
receiving oversight requests from this and other committees for e-mail 
records of VA employees. These are a new type of congressional requests 
for information for VA and require a very labor and resource-intensive 
process and impact the ability to process other requests. The request 
for e-mails and documents related to Authorities to Operate was 
transmitted to VA through an e-mail from committee staff to VA staff.
    This project is underway. VA will continue to work with the 
Committee on this issue to ensure transparency and collaboration with 
Congress.

    Question 4: It is well-known that the Assistant Secretary for OCLA 
either personally read or had others read every piece of information 
leaving your department before it is submitted to the committee. This 
likely accounts for tremendous delays in responding to Congress. Why do 
you feel that such scrutiny is necessary?

    VA Response: VA's goal is to provide accurate and timely responses 
that represent the most up to date information and an enterprise 
perspective so that the information being provided is complete. There 
have been instances in the past where information being provided to 
Congress was not complete or responsive to the request. It is also 
important to ensure that other offices in VA that may work on the 
subject in question have had an opportunity to provide input. The 
Office of Congressional and Legislative Affairs (OCLA) ensures, to the 
greatest extent possible, that that review and input occurs. OCLA's 
review does not significantly contribute to the time it takes to 
assemble information for Congress.

    Question 5: In other Departments in the government, the offices of 
Public and Intergovernmental Affairs and of Congressional and 
Legislative Affairs are under the direction of one Assistant Secretary. 
Please provide an assessment of the merits of this proposal.

    VA Response: Congress is an essential VA stakeholder and requires 
individual attention within the Department. Combining the VA offices of 
Congressional and Legislative Affairs and Public Affairs would not be 
the best approach for Congress or for VA. We are not aware of other 
Cabinet-level departments organized in this manner. We share the 
Committee's concern with media receiving information prior to Congress. 
We strive to ensure that does not happen. However, when it does occur, 
it is usually at the local level. OCLA is responsible for ensuring 
Congress receives timely and accurate information that reflects an 
enterprise perspective from the Department. The Committee would be 
unable to perform proper oversight of the Department without this 
focus.

    Question 6: According to VA's 2012 Performance and Accountability 
Report, the department set a strategic target of 90% for the percentage 
of responses to pre and post hearing questions that are submitted to 
Congress within the required time frame. What is your success for 
achieving that target in FY2013? How will you meet it in the future?

    VA Response: During fiscal year (FY) 2013, VA provided Congress 
with a great deal of information on VA programs and policies. During 
the year, VA witnesses testified at 62 hearings and VA subject matter 
experts provided 999 information briefs to Members of Congress and/or 
Congressional staff. VA also answered over 3,540 requests for 
information, a 29 percent increase from FY2012. The Department's 
strategic target for the submission of pre and post hearing questions 
is for 90 percent of the sets of questions to be submitted to Congress 
on time. For FY2013, the Department submitted 36 percent of the 22 sets 
of questions for the record within the requested timeframe along with 8 
additional submissions of completed budget hearings' questions for the 
record (477 total questions for the record). While the Department did 
not meet its target goal in FY2013 because of work volume and 
priorities, the Department will focus its efforts in FY2014 to produce 
timely responses to questions for the record.

    Question 7: According to VA's 2012 Performance and Accountability 
Report, the department set a strategic target of 90% for the percentage 
of testimony submitted to Congress within the required timeframe. What 
is your success for achieving that target in FY2013? How will you meet 
it in the future?

    VA Response: VA witnesses testified at 62 hearings during FY2013. 
The Department's strategic target for the submission of testimony is 90 
percent for the percentage of testimony submitted to Congress within 
the required timeframe. For FY2013, the Department submitted 75 percent 
of its testimony to Congress on time. In FY2014, the Department will 
re-double its efforts to produce responsive testimony.

    Question 8: According to VA's 2012 Performance and Accountability 
Report, the department set a strategic target of 85% for the percentage 
of title 38 reports that are submitted to Congress within the required 
time frame. What is your success for achieving that target in FY2013? 
How will you meet it in the future?

    VA Response: The Department's strategic target for the submission 
of title 38 reports is 85 percent for the percentage of title 38 
reports that are submitted to Congress within the required time frame. 
For FY2013, the Department submitted 24 percent of its title 38 reports 
within the prescribed time frame. During FY2013, the employee 
responsible for tracking title 38 reports was activated and served with 
the U.S. Army in the Middle East for the last ten months of the fiscal 
year. While the employee was deployed, another employee assumed this 
duty as a collateral duty in addition to normal duties and 
responsibilities. For 2014, the Department has assigned this 
responsibility to an employee as a full time duty and will continue to 
focus its efforts to ensure timely delivery of congressionally mandated 
reports.

    Question 9: What are OCLA's responsibilities and duties to the 
Department and to Congress?

    VA Response: OCLA coordinates the Department's activities with 
Congress. The office is the Department's focal point for interactions 
and engagements with all Members of Congress, authorization and 
oversight committees, and personal staff. Additionally, OCLA is the 
Department's liaison with the Government Accountability Office (GAO).
    OCLA's duties and responsibilities include:

    Coordinates the Department of Veterans Affairs' relations and 
activities with Congress:

    <bullet>  Maintains responsive communications with Congress through 
briefings, hearings, reports, site visits, responses to requests for 
information, and other requested services from Members of Congress.
    <bullet>  Develops and executes the Department's legislative 
strategy.
    <bullet>  Manages the Department's involvement in congressional 
hearings.
    <bullet>  Leads the preparation for hearings and briefings on 
policy, oversight matters, and legislation.
    <bullet>  Provides advice, prepares and accompanies VA personnel in 
meetings with Members of Congress, congressional committees or staff.
    <bullet>  Coordinating congressional oversight travel to VA 
facilities across the country.

    Develops legislative priorities and monitors and champions them 
before Congress:

    <bullet>  Lead office coordinating the development of Veteran 
legislation to benefit Veterans and improve the operations and 
efficiency of the Department.
    <bullet>  Coordinates requests for the views and technical support 
of the Department on pending or proposed legislation.
    <bullet>  Manages the Department's Title 38 congressionally 
mandated reports process.
    <bullet>  Advises VA senior leadership, in coordination with 
program office and legal staff, on legislative matters.

    Provides congressional liaison support to Members of Congress and 
staff:

    <bullet>  Maintains liaison offices in Senate and House office 
buildings to answer operational questions about VA and proactively 
communicate news to Congress.
    <bullet>  Receives and processes Member requests for assistance 
with constituent and policy inquiries.
    <bullet>  Receives, resolves, and responds to high level Veteran 
case inquiries from congressional offices.

    Serves as the Department's liaison with the GAO:

    <bullet>  Coordinates all GAO engagements within the Department.
    <bullet>  Coordinates preparation of responses to GAO draft and 
final reports, and ensures responses are provided to GAO in a timely 
manner.
    <bullet>  Keeps VA leadership apprised of GAO recommendation 
implementations.

    Question 10: During her testimony, Ms. Mooney distinguished between 
OCLA involvement in information requests sent from the Committee to VA, 
and ``correspondence'' sent from the Committee to any element of VA. 
Please provide OCLA's policy with respect to accountability for both 
timely response to information requests and correspondence.

    VA Response: OCLA is the office responsible for providing responses 
to Congressional Requests for Information (RFI). Within OCLA, the 
Congressional Relations Officer with oversight of the topic area is 
responsible for ensuring the Department's timely and accurate response. 
Upon receipt of a RFI the Congressional Relations Officer tasks the 
question to the relevant VA Administration or staff office. The Office 
of the Executive Secretary is responsible for replies to congressional 
correspondence addressed to the Secretary or Deputy Secretary. It is VA 
policy to return responses to congressional correspondence as soon as 
the appropriate information is obtained.

    Question 11: Please provide the Committee with the Department's 
internal phone directory.

    VA Response: VA no longer produces an internal phone directory in 
paper. We are pleased to provide assistance on request.

         Questions for the Record from Congressman Mike Coffman

    Question 1: On February 13, 2013, Dr. Petzel told me that he would 
provide the results of an internal mental health survey by the close of 
business that day. As of today, no information has been received. Can 
you explain why the survey I requested has not yet been provided?

    VA Response: On November 7, 2013 Under Secretary Petzel is 
scheduled to provide a briefing to HVAC committee staff which will 
include an overview of the results of the survey VA conducted of VA 
mental health providers.

    Question 2: In a hearing this past March, I asked for release of 
the Medical Inspector reports regarding the medical facilities in 
Columbia, South Carolina, and Augusta, Georgia prepared by Dr. Pierce 
and his staff. The Deputy Under Secretary for Health and Operations and 
Management at the VHA committed to look into disclosure for the record. 
Nothing to date has been received. Please explain.

    VA Response: The Department has been responsive to the Committee's 
March 2013 request regarding VA medical appointment and specialty 
consult backlogs and delays at the Dorn VA Medical Center in Columbia, 
South Carolina and other VA facilities. The Committee was provided a 
copy of the Office of the Medical Inspector (OMI) report regarding the 
Columbia VAMC on March 19, 2013, which included only the redaction of 
two dates directly associated with a Veteran. The report was sent with 
a note that an un-redacted report was available, upon a signed request 
from the Subcommittee Chairman. The written request was received from 
the Subcommittee on September 26, 2013 and the requested un-redacted 
copy of the OMI report was delivered on October 29, 2013. In addition, 
VA has provided three separate briefings to HVAC staff on this issue - 
on March 21, May 2, and September 6, 2013. The September 6, 2013 
briefing included an update on VA's response to the Inspector General 
report on this topic. The OMI did not conduct an investigation or 
complete a report of specialty consult delays in Augusta, GA.

         Questions for the Record from Congressman Timothy Walz

    Question 1: What is the Department's process for reviewing and 
commenting on legislation? In the case of H.R. 1980, what departments 
participated in the review process, who finally approved the comments?

    VA Response: The Department provides official views and costs on 
bills when a Committee holds a legislative hearing on the bill. VA 
provides views and costs in the written testimony for legislative 
hearings. For those bills VA is not able to address in time for a 
legislative hearing, views and costs are provided at a later time in a 
letter to the Committee. In the case of H.R 1980, VA did not provide 
official views on the bill because it was not on the agenda of a 
legislative hearing. However, VA provided technical assistance on the 
legislation to Representative Walz's staff on May 7, 2013. In addition, 
VA provided a copy of official views for S.935, the Senate companion 
bill to H.R. 1980, to Representative Walz's staff on September 17, 
2013. S. 935, was part of a 2013 Senate Committee on Veterans' Affairs 
hearing.

        Questions for the Record from Congressman Beto O'Rourke

    Question 1: I would like to know more about the Congressional 
Knowledge Management System, the system VA uses to track Congressional 
requests. Ms. Mooney mentioned that the program needs improvements. How 
does CKMS work now, what are its flaws, and what is VA doing to improve 
it, by when?

    VA Response: The Congressional Knowledge Management System (CKMS) 
is a commercial off-the shelf software program developed by Dynology 
Corporation. The Office of Congressional and Legislative Affairs (OCLA) 
licensed the software as a project management tool and an information 
repository for Congressional Relations Officers to manage their 
workload of congressional requests for information, briefings, and 
other requests.
    CKMS has been modified to meet the requirements of the office. OCLA 
will continue to refine the software to meet specific office 
requirements; in particular improving the reports generating capability 
of the software.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
